No. __________

In the
Supreme Court of the United States
──────────────────────────
HI-TECH PHARMACEUTICALS, INC. AND JARED WHEAT,
Petitioners,
v.
FOOD & DRUG ADMINISTRATION, ET AL.,
Respondent.
──────────────────────────
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit
──────────────────────────
PETITION FOR A WRIT OF CERTIORARI

──────────────────────────
John C. Neiman, Jr.
Counsel of Record
Thomas W.H. Buck, Jr.
Brandt P. Hill
MAYNARD COOPER & GALE, P.C.
1901 Sixth Avenue North
2400 Regions/Harbert Plaza
Birmingham, AL 35203
(205) 254-1228
jneiman@maynardcooper.com
September 1, 2020

Counsel for Petitioners

i
QUESTION PRESENTED
To increase the dietary supplements available to
the public, the Dietary Supplement Health and Education Act of 1994 (“DSHEA”), 21 U.S.C. §321(ff),
amended the Federal Food, Drug, and Cosmetic Act.
DSHEA’s amendments allow manufacturers to sell
supplements, without first obtaining FDA approval, if
their ingredients are, among other things, “constituent[s]” of “herb[s] or other botanical[s].” 21 U.S.C.
§321(ff)(1)(C) & (F). The dietary supplements at issue
in this case contain an ingredient known as DMAA,
which studies have shown occurs in geranium plants.
The courts below held that, even if these studies are
accurate, DMAA is not, as a matter of law, a “constituent” of a “botanical”—and thus is not presumptively
marketable as an ingredient in dietary supplements
under DSHEA—because these studies show that
DMAA appears in geraniums only in trace quantities,
and DMAA has no prior history of being directly extracted from the plant for medicinal, cosmetic, or dietary use. The question presented is as follows:
Did the Eleventh Circuit err in holding that a
substance that naturally occurs in a plant is not
a “constituent” of an “herb or other botanical”—
and therefore cannot be included in presumptively marketable dietary supplements under
the Dietary Supplement Health and Education
Act—if the substance naturally occurs in the
plant only in trace quantities and has no prior
history of being extracted from the plant for
medicinal, cosmetic, or dietary use?

ii
PARTIES TO THE PROCEEDINGS
Petitioners Hi-Tech Pharmaceuticals, Inc. and
Jared Wheat were appellants below. Respondents
United States Food and Drug Administration, United
States Department of Health and Human Services,
and United States of America were appellees below.
Respondent Alex Azar, in his official capacity as Secretary of the Department of Health and Human Services, succeeded to that office on January 29, 2018, at
which time Secretary Azar was automatically substituted as a party under Federal Rule of Appellate Procedure 43(c)(2). Upon assuming office, Secretary Azar
was an appellee below. Respondent Stephen M. Hahn,
in his official capacity as Commissioner of the United
States Food and Drug Administration, succeeded to
that office on December 17, 2019, after the entry of
judgment below, at which time Commissioner Hahn
was automatically substituted as a party under Federal Rule of Appellate Procedure 43(c)(2).

iii
CORPORATE DISCLOSURE STATEMENT
Hi-Tech Pharmaceuticals, Inc. is not a publicly
traded company. It has no parent company, and no
company owns 10% or more of its stock.

iv
RELATED PROCEEDINGS
This case arises from the following proceedings in
the United States District Court for the District of Columbia, the United States District Court for the
Northern District of Georgia, and the United States
Court of Appeals for the Eleventh Circuit, listed here
in chronological order:
Hi-Tech Pharmaceuticals, Inc. v. Hamburg, No. 1:13CV-01747 (D.D.C.) (transferred to N.D. Ga. Aug. 1,
2014).
Hi-Tech Pharmaceuticals, Inc. v. Hamburg, No. 1:14CV-24790-WBH (N.D. Ga.) (merged into No. 1:13-CV0675-WBH Aug. 1, 2014).
United States of America v. Undetermined Quantities
of All Articles of Finished and In-Process Foods, No.
1:13-CV-03675-WBH (N.D. Ga. Apr. 3, 2017), available at 2017 WL 4456903.
United States of America v. Undetermined Quantities
of All Articles of Finished and In-Process Foods, No.
17-13376 (11th Cir. Aug. 20, 2019), reported at 936
F.3d 1341.

v
TABLE OF CONTENTS
Question Presented ..................................................... i
Parties to the Proceedings ......................................... ii
Corporate Disclosure Statement .............................. iii
Related Proceedings ...................................................iv
Table of Appendices.................................................. vii
Table of Authorities................................................. viii
Petition for a Writ of Certiorari ..................................1
Opinions Below ............................................................5
Statement of Jurisdiction............................................6
Statutory Provisions Involved ....................................7
Statement of the Case .................................................8
A.

DSHEA’s regulatory structure ...................8

B.

DMAA’s presence in geranium
plants .........................................................10

C.

The FDA’s shifting positions on
DMAA ........................................................11

D.

The District Court’s ruling........................13

Reasons This Court Should Grant Certiorari ..........18
A.

The Eleventh Circuit’s interpretation
of
DSHEA
is
wrong
and
fundamentally contrary to the
principles set forth in Bostock ..................19

vi
B.

The Eleventh Circuit’s rewriting of
DSHEA is important and worthy of
review.........................................................26

Conclusion .................................................................31

vii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT, FILED
AUGUST 30, 2019 ...........................................................1a
APPENDIX B — ORDER DENYING
RECONSIDERATION IN THE UNITED
STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF
GEORGIA, ATLANTA DIVISION, FILED
JUNE 2, 2017 ................................................................27a
APPENDIX C — ORDER OF THE UNITED
STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF
GEORGIA, ATLANTA DIVISION, FILED
APRIL 3, 2017 ...............................................................30a
APPENDIX D — ORDER DENYING
REHEARING IN THE UNITED STATES
COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED
APRIL 8, 2020 ...............................................................43a

viii
TABLE OF AUTHORITIES
CASES
Bostock v. Clayton County, Georgia,
140 S. Ct. 1731 (2020) .... 1, 3, 18, 23, 24, 26, 30
Loughrin v. United States,
573 U.S. 351 (2014).........................................23
Nutraceutical Corp. v. Von Eschenbach,
459 F. 3d 1033 (C.A.10 2006) .........................29
Oncale v. Sundowner Offshore Servs., Inc.,
523 U.S. 75 (1998) ..........................................23
Pa. Dep’t of Corrections v. Yeskey,
524 U.S. 206 (1998)...........................................3
Sedima, S. P. R. L. v. Imrex Co.,
473 U. S. 479 (1985).................................... 3, 24
STATUTES
15 U.S.C. §2697 .........................................................21
21 U.S.C. §321(ff) ............................... i, 1, 2, 7, 8, 9, 20
21 U.S.C. §334 .............................................................6
21 U.S.C. §342 ....................................................... 9, 25
21 U.S.C. §355 .............................................................8
28 U.S.C. §1254 ...........................................................6
28 U.S.C. §1291 ...........................................................6

ix
28 U.S.C. §1345 ...........................................................6
Dietary Supplement Health and Education
Act of 1994,
Pub. L. No. 103-417,
108 Stat. 4325 (1994) ........................................9
RULES OF PROCEDURE
Fed. R. App. P. 43 ...................................................... iii
REGULATIONS
21 C.F.R. §101.13 ........................................................8
21 C.F.R. §101.14 ........................................................8
21 C.F.R. §101.70 ........................................................8
Rule Declaring Dietary Supplements
Containing Ephedrine Alkaloids
Adulterated,
69 Fed. Reg. 6787 (2004) ................................29
ARTICLES AND PAPERS
Bass, Scott, et al.,
The New Dietary Ingredient Safety
Provision of DSHEA: A Return to
Congressional Intent,
31 AM. J.L. & MED. 285 (2005) .......................25
Batra, Sukhsatej,
Importance of Trace Elements in the

x
Human Body,
S.F. CHRON. (Dec. 12, 2018)............................21
Buie, John,
Evolution of Mass Spectrometers,
LAB MANAGER (Feb. 27, 2011) ........................28
ElSohly, Mahmoud A., et al.,
Pelargonium Oil and Methyl
Hexaneamine (MHA): Analytical
Approaches Supporting the Absence of
MHA in Authenticated Pelargonium
Graveolens Plant Material and Oil,
J. ANALYTICAL TOXICOLOGY 1 (2012) ..............12
ElSohly, Mahmoud A., et al.,
Methylhexanamine is Not Detectable
in Pelargonium or Geranium Species
and Their Essential Oils: A
Multicentre Investigation,
DRUG TESTING & ANALYSIS (2014) ..................12
Fleming, HL, et al.,
Analysis and Confirmation of 1,3DMAA and 1,4-DMAA in Geranium
Plants Using High Performance
Liquid Chromatography with
Tandem Mass Spectrometry at ng/g
Concentrations,
7 ANALYTICAL CHEMISTRY INSIGHTS 59
(2012)...............................................................10
Gauthier, Thomas D.,
Evidence for the Presence of 1,3Dimethylamylamine (1,3-DMAA) in

xi
Geranium Plant Materials,
8 ANALYTICAL CHEMISTRY INSIGHTS 29
(2013)...............................................................10
Li, J.S., et al.,
Identification and Quantification of
Dimethylamylamine in Geranium by
Liquid Chromatography Tandem
Mass Spectrometry,
7 ANALYTICAL CHEMISTRY INSIGHTS 47
(2012)...............................................................10
McCormack, Denise, et al.,
A Review of Pterostilbene Antioxidant
Activity and Disease Modification,
OXIDATIVE MEDICINE & CELLULAR
LONGEVITY (2013) ...........................................27
McNulty, James,
A scalable process for the synthesis of
(E)-pterostilbene involving aqueous
Wittig olefination chemistry,
SCIENCE DIRECT J. (May 2013) .......................27
Oregon State Univ. Linus Pauling Inst.,
Micronutrient Info. Ctr.: Resveratrol
(2015)...............................................................27
Ping, Zang, et al.,
A Study on the Chemical Constituents
of Geranium Oil,
25 J. GUIZHOU INST. TECH. 82 (1996) ..............10
Scientists Discover a Cancer-Fighting
Substance in a Common Wildflower,
SILICON REPUBLIC (Aug. 2, 2019) ...................28

xii
Smith, Timothy P.,
Hidden Worlds: Hunting for Quarks
in Ordinary Matter (PRINCETON UNIV.
PRESS 2003) .....................................................22
Yirka, Bob,
Chemists Figure Out How to
Synthesize Compounds from
Resveratrol,
PHYSORG.COM (June 23, 2011) .......................27
Zhang, Ying, et al.,
1,3 Dimethylamylamine (DMAA) in
Supplements and Geranium
Products: Natural or Synthetic?,
DRUG TESTING ANALYSIS (2012) .....................13
DICTIONARIES
MERRIAM-WEBSTER ONLINE DICTIONARY
(2019)...............................................................21
SHORTER OXFORD ENGLISH DICTIONARY (5th
ed. 2002) ..........................................................19
WEBSTER’S THIRD NEW INTERNATIONAL
DICTIONARY OF THE ENGLISH
LANGUAGE UNABRIDGED (2002) ......................20

1
PETITION FOR A WRIT OF CERTIORARI
Just this past Term in Bostock v. Clayton County,
Georgia, 140 S. Ct. 1731 (2020), this Court emphasized that a statute’s unambiguous text governs even
when it yields a result, as applied to a particular factual setting, that a court suspects Congress might not
have anticipated. In this case—decided before Bostock—the Eleventh Circuit did what Bostock said
courts must not do. The Eleventh Circuit placed artificial restraints on plain text found in the Dietary
Supplement Health and Education Act and adopted,
in the place of the most straightforward reading of the
statute’s language, what the court deemed to be the
“safest conclusion” about what Congress would have
wanted if it had been confronted with the specific facts
of the case. App. A at 11a. The Eleventh Circuit’s decision is at odds with DSHEA and the overarching
principles that govern statutory interpretation, and
the issue presented is of great import to the dietarysupplement industry. This case thus would be worthy
of review even if this Court had not decided Bostock in
the meantime. But Bostock at least makes it appropriate to grant certiorari, to vacate the Eleventh Circuit’s
judgment, and to remand for that court to reconsider
its reading of DSHEA.
The statutory-interpretation question in this case
is whether a chemical compound Petitioners synthetically produce for inclusion in dietary supplements—
1,3-dimethylamylamine, known as DMAA—is a “constituent” of an “herb or other botanical” under
§321(ff)(1)(F) of DSHEA. If so, then DSHEA makes it

2
a “dietary ingredient,” which manufacturers may incorporate into dietary supplements without first seeking and obtaining the FDA’s approval. The District
Court and a divided Eleventh Circuit both held, on the
Government’s motion for summary judgment, that
DMAA is not a “constituent” of an “herb or other botanical” as a matter of law. But under any reasonable
interpretation of DSHEA’s language, Petitioners are
entitled to a trial. The Eleventh Circuit recognized
that this record reveals “a genuine factual dispute
over whether trace amounts of DMAA are naturally
contained in geranium[]” plants. App. A at 7a. Everyone agrees that the geraniums in which DMAA has
been found are “herb[s] or other botanical[s].” 21
U.S.C. §321(ff)(1)(C). Yet the Eleventh Circuit majority concluded that, even if DMAA naturally occurs in
geraniums, it is not a “constituent” of an “herb or other
botanical.”
As Judge Jordan noted in his dissent, that result
was driven not by DSHEA’s plain text and the ordinary understanding of the terms “constituent,” “herb,”
and “botanical,” but instead by the majority’s “policy”
concerns. App. A at 25a. The majority theorized that
DSHEA makes constituents of herbs or other botanicals marketable because “consuming them is ordinarily safe” and posited that “[t]he fact that DMAA can
be found in trace amounts in geraniums, if true, says
absolutely nothing about whether consuming the substance is safe.” App. A at 11a, 12a. On that basis the
majority read words into DSHEA, requiring not only
that the compound be a “constituent” of an “herb or
other botanical,” but also that it be present in more

3
than “trace amounts,” and that it have a prior history
of being “derived” from the plant for “medicinal, cosmetic, or dietary” products. App. A at 12a. It was of no
consequence to the majority that the phrases “trace
amounts,” “derived,” and “medicinal, cosmetic, or dietary” appear nowhere in the statutory text.
Bostock makes clear that the Eleventh Circuit’s
reasoning cannot stand. Judge Jordan’s dissent invoked almost precisely the same language this Court
would use 10 months later in Bostock: “[T]he fact that
a statute can be applied in situations not expressly
anticipated by Congress does not demonstrate ambiguity. It demonstrates breadth.” App. A at 26a (quoting Pa. Dep’t of Corrections v. Yeskey, 524 U.S. 206,
212 (1998)); cf. Bostock, 140 S. Ct. at 1749 (“But ‘ “the
fact that [a statute] has been applied in situations not
expressly anticipated by Congress” ’ does not demonstrate ambiguity; instead, it simply ‘ “demonstrates
[the] breadth” ’ of a legislative command.” (quoting
Sedima, S. P. R. L. v. Imrex Co., 473 U. S. 479, 499
(1985)). DSHEA’s language broadly encompasses all
constituents of botanicals—including those that, like
DMAA, appear in plants only in trace quantities and
have not previously been extracted for medicinal, cosmetic, or dietary purposes. That should have been dispositive.
The need for this Court to correct the Eleventh Circuit’s misinterpretation is paramount, for a great deal
is at stake. DSHEA’s drafters recognized that dietary
supplements are an important food source, and the
Eleventh Circuit’s decision will stifle innovation in the

4
industry. The FDA’s record in attempting to take Petitioners’ DMAA-containing supplements off the market raises serious concerns about regulatory overreach. If this Court does not grant plenary review, it
should at least grant certiorari, vacate the Eleventh
Circuit’s judgment, and remand for further consideration in light of Bostock.

5
OPINIONS BELOW
The Eleventh Circuit’s opinion is reported as
United States v. Undetermined Quantities of All Articles of Finished and In-Process Foods, 936 F.3d 1341
(C.A.11 2019), and reproduced at App. A at 1a–26a.
The District Court’s unpublished opinion granting the
Government summary judgment is reproduced at
App. C at 30a–42a. The District Court’s unpublished
opinion denying Hi-Tech and Jared Wheat’s motion
for reconsideration is reproduced at App. B at 27a29a. The Eleventh Circuit’s unpublished order denying panel and en banc rehearing is reproduced at App.
D at 43a–44a.

6
STATEMENT OF JURISDICTION
The decision under review arose from an in rem
forfeiture action the United States filed against the
dietary supplements at issue here. Hi-Tech and its
CEO, Jared Wheat, intervened as claimants in that
action. The District Court had jurisdiction under 28
U.S.C. §1345, which gives “the district courts . . . original jurisdiction of all civil actions, suits or proceedings commenced by the United States,” and 21 U.S.C.
§334(a)(1), which provides that the Government may
proceed with Food, Drug, and Cosmetic Act condemnation actions “in any district court of the United
States or United States court of a Territory within the
jurisdiction of which the article is found.”
The District Court entered final judgment, finding
the DMAA-containing supplements subject to forfeiture. App. C at 42a; App. B at 27a–29a. Hi-Tech and
Wheat took a timely appeal, and the Eleventh Circuit
had jurisdiction under 28 U.S.C. §1291. The panel entered final judgment, affirming the summary judgment, on August 30, 2019. See App. A at 21a. The
Eleventh Circuit denied Hi-Tech and Wheat’s timely
application for panel rehearing and rehearing en banc
on April 8, 2020. See App. D at 44a.
This Court has jurisdiction under 28 U.S.C.
§1254(1). Supreme Court Rule 13 made this petition
due on July 7, 2020. This Court’s Order of March 19,
2020, extended the deadline to file by 60 days, to September 8, 2020. Hi-Tech and Wheat are filing this petition within that timeframe.

7
STATUTORY PROVISIONS INVOLVED
The key text from DSHEA states:
For the purposes of this chapter . . . The term
“dietary supplement” – means a product (other
than tobacco) intended to supplement the diet
that bears or contains one or more of the following dietary ingredients: (A) a vitamin; (B) a
mineral; (C) an herb or other botanical; (D) an
amino acid; (E) a dietary substance for use by
man to supplement the diet by increasing the
total dietary intake; or (F) a concentrate, metabolite, constituent, extract, or combination of
any ingredient described in clause (A), (B), (C),
(D), or (E).
21 U.S.C. §321(ff)(1).

8
STATEMENT OF THE CASE
This case arises from the FDA’s seizure of millions
of dollars’ worth of DMAA-containing dietary supplements from Hi-Tech Pharmaceuticals, Inc. The FDA
instituted a forfeiture proceeding against the supplements in the Northern District of Georgia, and HiTech and Jared Wheat, the company’s principal owner
and CEO, intervened as claimants. The FDA’s theory
as to why these supplements were not marketable
shifted throughout the litigation. As explained below,
eventually the FDA prevailed on a ground that was
distinct from the one the agency first advanced to
seize these products.
A. DSHEA’s regulatory structure
DSHEA is a 1994 law that reflected Congress’s desire to make dietary supplements more available to
the public. Before DSHEA, the Food, Drug, and Cosmetic Act (“FDCA”) treated dietary supplements like
drugs, in the sense that manufacturers had to embark
on a costly and time-consuming process of obtaining
FDA approval before marketing hem. Among other
things, the FDCA required that a manufacturer prove
to the FDA that its dietary supplements were safe for
public consumption before it could market them. See
21 U.S.C. §355 (pre-market approval process for
drugs); 21 C.F.R. §§101.13-14; 101.70.
DSHEA changed this landscape by distinguishing
dietary supplements from drugs. DSHEA categorizes
“dietary supplements” as “foods” rather than “drugs,”
which allows manufacturers to market them without
first going through the FDA preapproval process. 21
U.S.C. §321(ff). The FDA may still remove a dietary

9
supplement from the market after a manufacturer
has begun selling it, but only if the agency meets the
demanding burden of proving that the supplement or
one of its ingredients “presents a significant or unreasonable risk of illness or injury under conditions of use
recommended or suggested in labeling, or if no conditions are suggested or recommended in the labeling,
under ordinary conditions of use.” Id. §342(f)(1)(A)(i)(ii). DSHEA thus withdrew what Congress deemed to
be the “unreasonable regulatory barriers” that treated
supplements like drugs. See Dietary Supplement
Health and Education Act of 1994, Pub. L. No. 103417, §2(13)-(15)(A), 108 Stat. 4325 (1994).
To this end, DSHEA defines “dietary supplement”
expansively, to include any “product” that is “intended
to supplement the diet that bears or contains one or
more” of a list of “dietary ingredients.” 21 U.S.C.
§321(ff). Most critically for the purposes of the case,
this list includes any “constituent” of an “herb or other
botanical.” Id. Also included are:
 “vitamin[s],”
 “mineral[s],”
 “amino acid[s],”
 “dietary substance[s] for use by man to supplement the diet by increasing the total dietary intake”; and
 “concentrate[s], metabolite[s], constituent[s], extract[s],” or a “combination” of any
of the aforementioned ingredients.
Id.

10
B. DMAA’s presence in geranium plants
After DSHEA made dietary supplements containing botanical constituents presumptively marketable,
evidence emerged that DMAA—a compound that previously had been synthesized in laboratories for use in
nasal decongestants—occurs naturally in geranium
plants. DMAA has energy-boosting effects much like
caffeine’s, and its inclusion in dietary supplements
helps people work out harder and lose weight. Based
on the evidence showing that DMAA is naturally present in geraniums, manufacturers began including
this ingredient in their dietary supplements.
This evidence includes multiple peer-reviewed
studies showing that DMAA naturally occurs in
plants of the pelargonium genus, including in the oils
of those plants. See App. A at 6a–7a; App. C at 34a;
Thomas D. Gauthier, Evidence for the Presence of 1,3Dimethylamylamine (1,3-DMAA) in Geranium Plant
Materials, 8 ANALYTICAL CHEMISTRY INSIGHTS 29-40
(2013), available at https://www.ncbi.nlm.nih.gov/
pmc/articles/PMC3682735/); Zang Ping et al., A Study
on the Chemical Constituents of Geranium Oil, 25 J.
GUIZHOU INST. TECH. 82 (1996); J.S. Li et al., Identification and Quantification of Dimethylamylamine in
Geranium by Liquid Chromatography Tandem Mass
Spectrometry, 7 ANALYTICAL CHEMISTRY INSIGHTS 47
(2012); HL Fleming et al., Analysis and Confirmation
of 1,3-DMAA and 1,4-DMAA in Geranium Plants Using High Performance Liquid Chromatography with
Tandem Mass Spectrometry at ng/g Concentrations, 7
ANALYTICAL CHEMISTRY INSIGHTS 59 (2012). These
plants have been consumed for hundreds of years in

11
certain parts of the world, often as a dressing on a
salad or dessert.
C. The FDA’s shifting positions on DMAA
This case arose when the FDA seized Hi-Tech’s
DMAA-containing supplements, claiming that they
were not presumptively marketable under DSHEA.
The FDA then filed an action seeking forfeiture of
these supplements in the Northern District of Georgia. But critically and tellingly, the FDA did not premise these enforcement actions on the interpretation of
DSHEA that the District Court and Eleventh Circuit
majority eventually would adopt: the FDA did not
claim that DMAA is not a “constituent” of an “herb or
other botanical” even if it naturally occurs in geraniums. The FDA instead contended that DMAA was not
a “constituent” of an “herb or other botanical” on the
premise that, as a factual matter, the studies discussed above were simply wrong—and that DMAA
does not naturally occur in geraniums at all.
But as the forfeiture action proceeded, the FDA’s
theory fell apart, and was even shown to have been
based on fraudulent research. The FDA had relied on
one study funded by the United States Anti-Doping
Agency (“USADA”), a non-governmental organization
that decides which substances American athletes participating in international competitions are permitted
to consume. Discovery revealed that USADA had lobbied the FDA to ban DMAA for its own reasons and
had funded this study to counter the studies finding
DMAA in geraniums. See Mahmoud A. ElSohly et al.,
Pelargonium Oil and Methyl Hexaneamine (MHA):

12
Analytical Approaches Supporting the Absence of
MHA in Authenticated Pelargonium Graveolens Plant
Material and Oil, J. ANALYTICAL TOXICOLOGY 1 (2012).
Discovery also revealed that the researchers who authored USADA’s studies had, in fact, found low levels
of DMAA in geraniums—but had failed to disclose
that finding in their final report after USADA officials
told them that a “low level” should not be enough. Doc.
108-4 at p. 565. The final study instead represented
that “[n]one of the analyzed oils or the plant material
(young and mature, fresh and dried leaves and stems)
showed any detectable level of” DMAA. Doc. 108-4 at
pp. 572, 585.
Discovery revealed similar flaws in other studies
on which the FDA was relying. The FDA had cited a
second paper by the same researchers, Mahmoud A.
ElSohly et al., Methylhexanamine is Not Detectable in
Pelargonium or Geranium Species and Their Essential Oils: A Multicentre Investigation, DRUG TESTING
& ANALYSIS (2014). But in that study also, the researchers had detected low levels of DMAA in certain
geraniums. See Doc. 108-5 at pp. 62-67 (email correspondence from Min Yang of the Shanghai Institute of
Materia Medica). As with the first study, the authors
did not report their findings, and instead used a
higher “detection level” to claim that they had detected no DMAA in the plants. Still another study had
similar problems. The original version concluded that
DMAA naturally occurs in geraniums. See Doc. 108-5
at pp. 2-11. But the final version said, without any
acknowledgement of the earlier results, that it had

13
not found DMAA in the geraniums “with a limit of detection of 10 parts per billion.” Ying Zhang et al., 1,3
Dimethylamylamine (DMAA) in Supplements and Geranium Products: Natural or Synthetic?, DRUG TESTING ANALYSIS (2012).
D. The District Court’s ruling
After the FDA seized Hi-Tech’s dietary supplements and instituted its forfeiture action, Hi-Tech and
Wheat intervened, claiming ownership interests in
the seized products.1 Following discovery, both sides
moved for summary judgment. The FDA’s claim was
that, despite the flaws that had been revealed in the
studies on which it had relied, the undisputed evidence showed that DMAA does not naturally occur in
geraniums and therefore is not a “constituent” of an
“herb or other botanical” under DSHEA. Hi-Tech, on
the other hand, argued that the undisputed evidence
shows that DMAA is naturally in geraniums, and thus
is a “constituent” of an “herb or other botanical.”
The District Court had little trouble discarding the
FDA’s theory. The District Court rejected the FDA’s
assertion that there was “uncontroverted evidence
that geraniums cannot make DMAA.” App. C at 34a–
35a. The District Court instead concluded, based on
After the Government seized these dietary supplements but before it filed the forfeiture action, Hi-Tech filed an action against
the FDA and various federal officials in the District Court for the
District of Columbia, alleging violations of the Administrative
Procedure Act and the Due Process Clause. See App. A at 2a–3a.
That court transferred the action to the Northern District of
Georgia, which consolidated it with the Government’s forfeiture
action.
1

14
the studies cited by Hi-Tech, that there is “fairly substantial evidence that trace amounts of DMAA have
been found in a species of a geranium plant.” App. C
at 34a.
But despite rejecting the FDA’s suggestion that
the record conclusively resolved the parties’ factual
dispute, the District Court nonetheless entered summary judgment for the Government—based on an interpretation of DSHEA that the FDA itself had never
advanced. The District Court held that the evidence
showing DMAA to be present in geranium plants did
not establish that it was a dietary ingredient under
DSHEA. That was so, in the District Court’s estimation, because “to be a botanical, [a] substance must
have been extracted from a plant or plant-like organism and used, for example, in or as a medicine.” App.
C at 36a. “While very small amounts of DMAA might
be present in geraniums,” the District Court found,
“DMAA in the marketplace has never been extracted
from geraniums or any other plant.” App. C at 36a–
37a.2 While recognizing that DSHEA allows dietarysupplement manufacturers to use synthesized ingredients in their products so long as those ingredients
also occur naturally, the District Court found that, for
a substance to be a “botanical,” there must be “at least
Because the Government had not argued that whether DMAA
has a history of being derived from geraniums was relevant, the
parties had conducted no discovery on the issue. See App. A at
3a. Hi-Tech and Wheat argued in their motion for reconsideration that the District Court should allow them to conduct discovery on this issue. See App. A at 3a. The District Court denied that
motion, and the Eleventh Circuit affirmed. See App. B at 29a;
App. A at 17a–19a.
2

15
some history of the substance in question having been
extracted in usable quantities” from a plant. App. C at
37a. Under that standard—and without considering
whether DMAA, if not a botanical, is at least a “constituent” of a botanical—the District Court concluded
that “DMAA is not a botanical and thus not a dietary
ingredient.” App. C at 37a.3
Hi-Tech and Wheat filed a motion to reconsider,
observing that the District Court had not addressed
whether DMAA is, at the very least, a “constituent” of
a botanical. The District Court denied the motion, explaining that its analysis applied “by extension” to the
question whether DMAA is a botanical “constituent.”
App. B at 28a.
E. The Eleventh Circuit’s decision
Hi-Tech and Wheat appealed, and a divided Eleventh Circuit affirmed. See App. A at 2a–26a.
The majority opinion, which was written by Judge
Hinkle and joined by Judge Tjoflat, adopted a construction of DSHEA much like the District Court’s.
The majority acknowledged that a “constituent” of an
“herb or other botanical” can be a dietary ingredient
even when it is “artificially manufactured” for use in
supplements. App. A at 13a. The majority also
acknowledged that “this record presents a genuine
factual dispute over whether trace amounts of DMAA
are naturally contained in geraniums.” App. A at 7a.
The majority likewise acknowledged that the term

The District Court addressed several other issues that are not
pertinent here. See App. C at 38a–40a.
3

16
“constituent” could mean “anything naturally contained in” and noted also that the term can mean “an
essential part.” App. A at 10a. Yet after examining the
text and ordinary meanings of the terms “constituent”
and “botanical,” the court declared that “[n]one of this
is dispositive.” App. A at 11a. It stated that the “safest
conclusion” was that “it is unlikely that Congress used
the term ‘constituent’ to mean a substance that is present in a plant in only trace amounts and that has
never been derived from a plant for use in any medicinal, cosmetic, or dietary product.” App. A at 11a. It
reasoned that the “fact that DMAA can be found in
trace amounts in geraniums, if true, says absolutely
nothing about whether consuming the substance is
safe.” App. A at 12a–13a.
Judge Jordan dissented in pertinent part. See App.
A at 22a–26a. Citing various dictionaries, he reasoned
that “the word ‘botanical’ contextually refers to a
plant or part of a plant,” and the term “constituent”
means “a component or element of a whole.” App. A at
23a, 24a. He stated that the “statutory text does not
provide a basis for the district court’s conclusion that
a ‘constituent’ of a ‘botanical’ must have a history of
being extracted in usable quantities, or for the majority’s holding that to be a ‘constituent’ an ingredient
must have been derived from a plant for use in a medicinal, cosmetic, or dietary product.” App. A at 24a–
25a. He argued that “[t]he majority’s contrary interpretation” of DSHEA “seems influenced by policy reasons which call for a narrower reading of the statutory
text,” which he argued were “not ours to consider.”
App. A at 25a. Instead, he concluded, “[a]lthough the

17
statutory reading advocated by Hi-Tech is expansive,
that reading squares with the broad language Congress chose.” App. A at 26a. He therefore would have
“remand[ed] for a trial on whether DMAA” does, in
fact, naturally occur in geranium plants. App. A at
26a.4
Hi-Tech and Wheat petitioned for panel and en
banc rehearing, which the Eleventh Circuit denied.
See App. D.

The Eleventh Circuit also addressed several other issues that
are not the subject of this petition, including Hi-Tech and
Wheat’s argument that the District Court at least should have
allowed them to conduct discovery on whether DMAA previously
had been extracted from geraniums. See App. A at 14a–20a.
4

18
REASONS THIS COURT SHOULD GRANT CERTIORARI
Shortly after the Eleventh Circuit denied rehearing in this case, this Court decided Bostock v. Clayton
County, Georgia, 140 S. Ct. 1731 (2020). The context
there, and the question presented, were different from
the ones now before the Court. But in resolving the
specific issue Bostock presented, this Court emphasized core principles of statutory interpretation that
govern all federal statutes. “When the express terms
of a statute give us one answer and extratextual considerations suggest another, it’s no contest,” this
Court explained: “Only the written word is the law,
and all persons are entitled to its benefit.” Id. at 1737.
There is no “‘canon of donut holes,’” this Court stated,
“in which Congress’s failure to speak directly to a specific case that falls within a more general statutory
rule creates a tacit exception.” Id. at 1747. “Instead,
when Congress chooses not to include any exceptions
to a broad rule,” this Court stressed, “courts apply the
broad rule.” Id.
Those statements stand as compelling criticisms of
the Eleventh Circuit’s interpretation of DSHEA—
which, though not related to the fundamental civilrights issue presented in Bostock, is important in its
own right. In dissenting below, Judge Jordan invoked
these same principles. The Eleventh Circuit had given
DSHEA a “narrower reading” than its plain text allowed, he observed, App. A at 25a, based on a suspicion that it was “unlikely” Congress would have
“mean[t]” for these terms to include substances that
appear “only in trace amounts” and do not have a history of being extracted from those plants, App. A at 9a

19
(majority op.). Out of its concern for what Judge Jordan rightly characterized as “policy reasons,” the majority had effectively invoked what this Court in Bostock called “the canon of donut holes,” carving an exception into the statute that kept DSHEA’s broad text
from applying in the specific circumstances of this
case. App. A at 25a. The result not only runs contrary
to the principles set forth in Bostock, but also will stifle innovation in the dietary-supplement industry in
ways that run contrary to DSHEA’s most fundamental purposes. This Court should either grant plenary
review or, at least, grant certiorari, vacate the Eleventh Circuit’s judgment, and remand for further consideration in light of Bostock.
A. The Eleventh Circuit’s interpretation of
DSHEA is wrong and fundamentally contrary to the principles set forth in Bostock
The ordinary understanding of the phrase “constituent” of an “herb or other botanical,” as found in
DSHEA, encompasses all substances that, like
DMAA, naturally occur in geranium plants and their
oils. There is no doubt that the geraniums and their
oils in which DMAA has been detected are “botanicals” for these purposes. Even the FDA conceded that
one definition of “botanical” is a “plant (or part of the
plant).” App. A at 23a (Jordan, J., dissenting). And the
ordinary meaning of “constituent” is “‘an element of a
complex whole.’” App. A at 24a (Jordan, J., dissenting)
(quoting 1 SHORTER OXFORD ENGLISH DICTIONARY 496
(5th ed. 2002); see also App. A at 24a (noting alternative definition as “‘a thing, person, or organism that

20
along with others serves in making up a complete
whole or unit’” (quoting WEBSTER’S THIRD NEW INTERNATIONAL DICTIONARY OF THE ENGLISH LANGUAGE UNABRIDGED 258 (2002)).
Those considerations mean that DMAA is a “constituent” of a “botanical” so long as it naturally occurs
in geraniums and their oils. It is telling that, when the
FDA seized these products and sought their forfeiture,
it did not contend otherwise. It did not argue that
DMAA is not a “constituent” of a “botanical” because
it appeared in geraniums only in trace quantities or
did not have a history of being extracted from these
plants. Its theory was, instead, that DMAA is not a
“constituent” of a “botanical” because it does not naturally occur in geraniums at all. But discovery revealed
that the studies on which the FDA based that theory
were flawed and even fraudulent—and that other
studies stood as substantial evidence that, as the
Eleventh Circuit acknowledged, “trace amounts of
DMAA are naturally contained in geraniums.” App. A
at 7a. The right result, as Judge Jordan’s dissent explained, was a remand for a “trial on whether DMAA
is,” as a factual matter, “a ‘constituent’ of geraniums.”
App. A at 26a (Jordan, J., dissenting).
The Eleventh Circuit, like the District Court before
it, headed off that result only by writing new words
into DSHEA. The statute’s text says that a presumptively marketable dietary supplement can contain a
“constituent” of an “herb or other botanical.” 21 U.S.C.
§321(ff)(1). No more, no less. Yet the majority opinion
judicially mandated an exception to that text, elimi-

21
nating the marketability presumption when the constituent is, in the majority’s words, “present in a plant
in only trace amounts” and has previously “never been
derived from a plant for use in any medicinal, cosmetic, or dietary product.” App. A at 11a.
That wordsmithing was the Eleventh Circuit’s, not
Congress’s, and the majority opinion did not anchor
this verbiage in any part of DSHEA’s text. It did point
to one dictionary that defines “constituent” as, among
other things, an “essential part,” and from that definition reasoned that the term’s “connotation” is “usually
not [as] broad” as the meaning Hi-Tech had argued,
which was “anything naturally contained in.” App. A
at 10a. But the same dictionary also defines “constituent” as “component.” See “Constituent,” MERRIAMWEBSTER
ONLINE
DICTIONARY
(2019),
https://www.merriam-webster.com/dictionary/constituent. And the fact that something appears in small
quantities, even trace amounts, does not mean it is not
“essential” in any event. Human bodies contain numerous “trace elements” that are present “in only
small amounts” but still are “vital for maintaining
health.” Sukhsatej Batra, Importance of Trace Elements in the Human Body, S.F. CHRON. (Dec. 12,
2018), https://healthyeating.sfgate.com/importance trace-elements-human-body-4864.html. If Congress
believed that a certain “essential” amount of a component must be in a plant for it to be a “constituent,”
DSHEA would have pegged that “essential” amount
at a specific number, as statutes do in innumerable
contexts. See, e.g., 15 U.S.C. §2697(a)(7)(C) (formaldehyde thresholds in wood products).

22
Nor did the Eleventh Circuit provide a textual anchor for its requirement that, to count as a “constituent,” the plant component must have a prior history of
being extracted for “medicinal, cosmetic, or dietary”
purposes. App. A at 9a, 11a, 12a. What the Eleventh
Circuit meant by this is unclear. The majority emphasized that its ruling did “not mean that DSHEA applies only to products actually derived from plants,”
and did not doubt that, “[i]f a product is indeed a dietary supplement because it contains a qualifying dietary ingredient—including, for example, an herb or
other botanical—a manufacturer may,” consistently
with DSHEA, either “take the dietary ingredient from
nature or produce it artificially.” App. A at 13a. Yet
the majority held that, before such an ingredient can
be considered a “constituent” of a botanical, it must
have a history of previously being “derived from” that
“plant.” App. A at 13a.
That reasoning makes no sense and has no textual
basis. The components of something are its constituents, regardless of whether they have been physically
separated from it in the past. Cf. Timothy P. Smith,
Hidden Worlds: Hunting for Quarks in Ordinary Matter 51 (PRINCETON UNIV. PRESS 2003) (calling quarks
“the basic constituents of matter” even though science
has “never isolated a quark” and perhaps “never
will”). Although the majority suggested it would be
“awkward[]” if “constituent” had a “broad[er]” scope
than other substances DSHEA makes marketable—
substances that are derived directly from plants, App.
A at 11a—Judge Jordan rightly observed that “words
. . . connect[ed]” in a disjunctive list like this one in

23
DSHEA “‘are to be given separate meanings.’” App. A
at 25a (quoting Loughrin v. United States, 573 U.S.
351, 357 (2014)).
Much more so than any textual consideration, the
majority developed its exception to DSHEA’s list of
presumptively marketable supplements through the
kind of extratextual reasoning this Court rejected in
Bostock. Chief among the Eleventh Circuit’s cited concerns was its belief that it was “unlikely” that Congress “mean[t]” for the term “constituent” to encompass a substance that, like DMAA, is “present in a
plant in only trace amounts and that has never been
derived from a plant for use in any medicinal, cosmetic, or dietary product.” App. A at 11a. Yet the Eleventh Circuit cited no text or legislative history that
would support any supposition that Congress had specifically considered the matter, and this Court in Bostock emphasized that any surmise that “few in” Congress would have “expected” a result is no reason to
deny what “follows ineluctably from the statutory
text.” Bostock, 140 S. Ct. at 1750. As this Court explained, “it is ultimately the provisions of those legislative commands rather than the principal concerns of
our legislators by which we are governed.” Id. (quoting
Oncale v. Sundowner Offshore Servs., Inc., 523 U.S.
75, 79 (1998) (internal quotations omitted)).
Of similar effect—and in similar tension with Bostock—was the Eleventh Circuit’s repeated concern
that the ordinary meaning of the words “constituent”
and “herb or other botanical” would simply be too
“broad.” App. A at 10a. In so doing the Eleventh Circuit followed the “‘canon of donut holes’” that Bostock

24
firmly rejected, “in which Congress’s failure to speak
directly to a specific case that falls within a more general statutory rule creates a tacit exception.” Id. at
1747. As Bostock emphasized and Judge Jordan’s dissent echoed, that is not how the law works. “[W]hen
Congress chooses not to include any exceptions to a
broad rule,” courts are not to create an exception like
the Eleventh Circuit did below, but instead are to “apply the broad rule.” Id. “‘[T]he fact that [a statute] has
been applied in situations not expressly anticipated
by Congress’” does not demonstrate ambiguity; instead, it simply “‘demonstrates [the] breadth’” of a legislative command.” Id. at 1749 (quoting Sedima, 473
U.S. at 499.)
The Eleventh Circuit likewise ran headlong into
Bostock’s prohibitions when it offered policy justifications for altering the text. According to the majority,
it made sense to narrow the list of presumptively marketable supplements because “[t]he fact that DMAA
can be found in trace amounts in geraniums, if true,
says absolutely nothing about whether consuming the
substance is safe.” App. A at 12a–13a. But Bostock
makes clear that this sort of atextual reasoning can
play no role when the text is plain. To evade a statute’s language on the premise that “undesirable policy
consequences would follow” is to abandon “any pretense of statutory interpretation.” Bostock, 140 S. Ct.
at 1753. “[T]hat’s an invitation no court should ever
take up,” this Court pronounced, because “[t]he place
to make new legislation, or address unwanted consequences of old legislation, lies in Congress.” Id. Judge
Jordan made the same point: the “policy reasons” that

25
drove the majority’s “narrower reading of the statutory text,” he concluded, were not that court’s—or any
court’s—“to consider.” App. A at 25a.
Judicially narrowing statutes based on policy calculations of this sort is ill-advised—not only because
“people are entitled to rely on the law as written,” as
Bostock observed, but also because a court’s “suppositions about” Congress’s “intentions” often turn out to
be wrong. Bostock, 140 S. Ct. at 1749, 1754. The Eleventh Circuit’s decision stands as a stark example of
that dynamic. Contrary to the Eleventh Circuit’s surmise, the DSHEA provision at issue here, which defines which dietary supplements are presumptively
marketable, “is not,” as commentators have emphasized, “a safety provision.” Scott Bass et al., The New
Dietary Ingredient Safety Provision of DSHEA: A Return to Congressional Intent, 31 AM. J.L. & MED. 285,
294-95 (2005). This provision draws the line not between substances that are safe and those that are not,
but instead between substances that occur in nature
and those that do not. DSHEA does have a safety provision, located in a separate statutory section, that allows the FDA to take products off the market if it can
show they “present[] a significant or unreasonable
risk of illness or injury.” 21 U.S.C. §342(f)(1)(A). But
critically, the FDA has never tried to make that showing with respect to DMAA. In light of the evidence
showing that DMAA is safe when used in accordance
with its intended uses, the FDA would not succeed in
any such endeavor. See App. A at 16a (“If the issue
was whether DMAA is safe, Hi-Tech’s evidence would
create a genuine issue of fact precluding summary

26
judgment; neither side’s evidence is conclusive.”). The
Eleventh Circuit’s concern over safety not only steered
it away from the text’s proper interpretation, but also
was unjustified in its own right.
The Eleventh Circuit’s misguided analysis underscores why, as Bostock reiterated, resort to policy considerations is imprudent when the statutory text is
broad and plain. “[S]uppositions about intentions or
guesswork about expectations” of Congress’s are not
part of the interpretive process. Bostock, 140 S. Ct. at
1754. A court’s task is not, as Bostock put it, to “point
out” any “application” of a statute that it believes to
be “both unexpected and important” and to “refer the
subject back to Congress.” Id. at 1750. The court’s task
is to determine if “the plain terms of the law” cover the
situation at hand and, if so, to “enforce” them. Id. That
is what the Eleventh Circuit should have done below,
and it is what the Eleventh Circuit likely would do
now if this Court grants review, vacates the judgment,
and remands for consideration in light of the intervening decision in Bostock.
B. The Eleventh Circuit’s rewriting of DSHEA is
important and worthy of review
The need for this Court’s intervention—and, at the
very least, for an instruction that the Eleventh Circuit
reconsider the case in light of Bostock—is imperative.
The issue of DMAA’s marketability is a novel one, and
as a result there is no division among the lower courts
on this question. But the Eleventh Circuit’s decision
is of tremendous importance to the dietary-supplement industry, and the FDA’s pattern of overreach on

27
DMAA may improvidently prevent further lowercourt consideration of this significant issue.
Consider first the effect this decision will have on
the industry. DMAA is an important dietary ingredient, and supplements containing it have formed a significant portion of Hi-Tech’s business. Yet the Eleventh Circuit’s insertion of this language into DSHEA
will call into question not only DMAA’s continued viability, but also the processes for producing numerous
other beneficial dietary ingredients in the future.
Pterostilbene, for example, is an antioxidant in blueberries, but in “trace amounts,” around 10 parts per
million. See Denise McCormack et al., A Review of
Pterostilbene Antioxidant Activity and Disease Modification, OXIDATIVE MEDICINE & CELLULAR LONGEVITY
(2013), https://www.hindawi.com/journals/omcl/2013/
575482/. Resveratrol is the chemical that makes red
wine healthy, but there are only 0.3 to 0.5 milligrams
per glass. See Ore. State Univ. Linus Pauling Inst.,
Micronutrient Info. Ctr.: Resveratrol (2015) tbl. 1,
http://lpi.oregonstate.edu/mic/dietary-factors/phytochemicals/resveratrol. Manufacturers have synthesized these compounds to incorporate them into dietary supplements in larger, more beneficial quantities. See, e.g., James McNulty, A scalable process for
the synthesis of (E)-pterostilbene involving aqueous
Wittig olefination chemistry, SCIENCE DIRECT J. (May
2013); Bob Yirka, Chemists Figure Out How to Synthesize Compounds from Resveratrol, PHYSORG.COM
(June 23, 2011), https://phys.org/news/2011-06-chemists-figure-compounds-resveratrol.html. Yet even

28
though the Eleventh Circuit acknowledged that botanical constituents can be included in supplements
when they are “artificially manufactured,” the limitations the majority wrote into DSHEA—precluding,
among other things, constituents found only in “trace
amounts”—will call these processes into doubt. App.
A at 13a.
The Eleventh Circuit’s decision will put the brakes
on progress in the dietary-supplement industry in additional ways. The machines used to determine a
plant’s components are “still evolving to meet the latest demands of biotechnology.” John Buie, Evolution
of Mass Spectrometers, LAB MANAGER (Feb. 27, 2011),
https://www.labmanager.com/lab-product/2011/02/
evolution-of-mass-spectrometers#.XZomwvZFw2w.
Scientists constantly uncover new and beneficial
plant compounds. See, e.g., Scientists Discover a Cancer-Fighting Substance in a Common Wildflower, SILICON REPUBLIC (Aug. 2, 2019), https://www.siliconrepublic.com/innovation/feverfew-wildflower-cancerkilling-compound. When future technological and scientific leaps reveal these compounds in trace
amounts—and the compounds have not previously
been derived from the plants at issue—the Eleventh
Circuit’s decision will preclude their use in presumptively marketable supplements no matter how beneficial they may be. These considerations make it important not to delay resolution of this question—or, at
the very least, to give the Eleventh Circuit another opportunity to answer it in light of Bostock.

29
The FDA actions that brought this issue to a head
heighten the need for this Court’s immediate intervention. When the United States Anti-Doping Agency
first approached the FDA about DMAA’s marketability, FDA officials took the position that, due to the research showing that “[DMAA] is found in the oil of
many geraniums,” DMAA “appear[ed] to be a dietary
ingredient under [DSHEA] because it is a constituent
of another dietary ingredient, (i.e., a plant).” Doc. 1084 at pp. 290 & 292. It was only after USADA continued
to lobby the FDA—and after USADA funded the
fraudulent study, discussed above, in which researchers concealed DMAA’s presence in geraniums—that
the FDA changed its position, and began to claim that
DMAA is not in geraniums. See supra at 11–13.
In pressing that ultimately unsuccessful claim, the
FDA chose enforcement actions that minimized the
opportunities for judicial review. The FDA did not, as
it has for other dietary supplements, initiate noticeand-comment rulemaking to accept public input on
whether DMAA is safe, from which judicial review
could have followed. See, e.g., Rule Declaring Dietary
Supplements Containing Ephedrine Alkaloids Adulterated, 69 Fed. Reg. 6787 (2004), upheld on review,
Nutraceutical Corp. v. Von Eschenbach, 459 F. 3d
1033, 1043–44 (C.A.10 2006). The FDA instead sent
warning letters to eleven of the largest DMAA manufacturers, and those manufacturers all took their
products off the market rather than face the risks that
their defense would have entailed. See Doc. 108-5 at
p. 26; Doc. 108-7 at p. 112. Smaller manufacturers,
like Hi-Tech, then became subject to individualized

30
seizures and forfeiture actions like the one at issue
here.
But when Hi-Tech and Wheat chose to not wave
the white flag as other manufacturers had done, the
factual premises for the FDA’s actions quickly evaporated. Discovery revealed that USADA had encouraged researchers to fudge their results and to conceal
DMAA’s presence within geraniums. When that became apparent, the FDA should have dismissed this
case. Still, the agency pressed on, and the lower courts
rightly held that the FDA “failed to meet its burden of
establishing that DMAA has not been found in geraniums.” App. C at 36a.
Yet both the District Court and the Eleventh Circuit held that the FDA was entitled to summary judgment, based on their belief that Congress would have
wanted the statute’s meaning to be “narrower” than
even the FDA had believed its plain text to provide.
App. A at 9a, 10a. Bostock shows that parties like HiTech and Wheat, who have a considerable amount to
lose if their products are not marketable, should not
have to “fear[] that courts might disregard” the “plain
terms” of a statute “based on some extratextual consideration” of this sort. Bostock, 140 S. Ct. at 1749.
The stakes to Hi-Tech and the rest of the dietary-supplement industry are thus high, and the FDA’s actions
will likely prevent further percolation of these issues.
At the very least, a remand to the Eleventh Circuit is
warranted.

31
CONCLUSION
This Court should either grant plenary review or
should grant certiorari, vacate the judgment below,
and remand the case to the Eleventh Circuit for further consideration in light of Bostock.
Respectfully submitted,
John C. Neiman, Jr.
Counsel of Record
Thomas W.H. Buck, Jr.
Brandt P. Hill
MAYNARD COOPER & GALE,
P.C.
1901 Sixth Avenue North
2400 Regions/Harbert
Plaza
Birmingham, AL 35213
(205) 254-1228
jneiman@maynardcooper.com
tbuck@maynardcooper.com
bhill@maynardcooper.com

September 1, 2020

Counsel for Petitioners

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED AUGUST 30, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 17-13376
D.C. Docket No. 1:13-cv-03675-WBH
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
UNDETERMINED QUANTITIES OF ALL
ARTICLES OF FINISHED AND IN-PROCESS
FOODS, RAW INGREDIENTS (BULK POWDERS,
BULK CAPSULES), WITH ANY LOT NUMBER,
SIZE, OR TYPE CONTAINER, WHETHER
LABELED OR UNLABELED, et al.,
Defendants,
HI-TECH PHARMACEUTICALS, INC.,
JARED WHEAT,
Claimants-Appellants.
Appeal from the United States District Court
for the Northern District of Georgia
(August 30, 2019)

2a
Appendix A
Before TJOFLAT and JORDAN, Circuit Judges, and
HINKLE,* District Judge.
HINKLE, District Judge:
The Dietary Supplement Health and Education
Act of 1994 provides favorable treatment for “dietary
supplements,” defined to include any “botanical” or
“constituent” of a botanical. This case presents the
question whether these terms apply to a substance that
was invented in a laboratory and is artificially produced
for commercial sale but that, entirely coincidentally, may
be found in trace amounts in a plant. We hold that the
terms do not extend this far.
I.

Proceedings

The Food and Drug Administration seized from
Hi-Tech Pharmaceuticals, Inc. a substantial quantity of
products containing 1,3-dimethylamylamine or “DMAA.”
DMAA is used in fitness products aimed at bodybuilders
and other athletes.
The seizure led to two actions that were consolidated
in the district court. One was a forfeiture action filed by the
United States against the products. Hi-Tech and its chief
executive officer, Jared Wheat, intervened as claimants.
Hi-Tech filed the other action against the FDA and other
governmental defendants.
* Honorable Robert L. Hinkle, United States District Judge
for the Northern District of Florida, sitting by designation.

3a
Appendix A
Hi-Tech asserted that DMAA is a dietary supplement;
that under the Administrative Procedure Act the FDA can
properly ban DMAA, if at all, only through rulemaking;
and that the seizure of Hi-Tech’s DMAA violated the Fifth
Amendment’s Due Process Clause.
The parties filed cross-motions for summary judgment.
The district court granted the FDA’s motion, holding the
seizure proper both substantively and procedurally. The
district court denied a motion to reconsider that included
a request to reopen discovery. Hi-Tech and Mr. Wheat
have appealed. The appeal has been fully briefed and
orally argued.
II. Standard of Review
We review de novo the district court’s grant of
summary judgment. See, e.g., Price v. Comm’r, Dep’t of
Corr., 920 F.3d 1317, 1323 (11th Cir. 2019). We review for
abuse of discretion the district court’s denial of the motion
for reconsideration and refusal to reopen discovery. See,
e.g., Corwin v. Walt Disney Co., 475 F.3d 1239, 1254 (11th
Cir. 2007) (reconsideration); Artistic Entm’t, Inc. v. City
of Warner Robins, 331 F.3d 1196, 1202 (11th Cir. 2003)
(reopening discovery).
III.

The Statute and the Issues

The Federal Food, Drug, and Cosmetic Act prohibits
the introduction of adulterated foods into interstate
commerce. 21 U.S.C. § 331(a). The FDA enforces the
Act. Id. § 393(b)(2)(A). The agency may bring an in rem

4a
Appendix A
forfeiture action in district court to condemn adulterated
foods. Id. § 334(a)(1). Hi-Tech’s DMAA products were
adulterated foods if they were “food additives” but not if
they were “dietary supplements.”
The background is this. The Dietary Supplement
Health and Education Act of 1994, commonly referred
to as “DSHEA,” amended the Federal Food, Drug,
and Cosmetic Act to provide favorable treatment for
dietary supplements. The statute’s definition of “dietary
supplement” includes multiple parts. 21 U.S.C. § 321(ff).
The only part relevant to Hi-Tech’s DMAA is this: a
product that is intended to supplement the diet—this
includes DMAA—is a dietary supplement if it contains
“an herb or other botanical” or “a concentrate, metabolite,
constituent, extract, or combination of” an herb or other
botanical. Id. § 321(ff)(1)(C) & (F). The statute describes
these—as well as other substances not at issue here—as
“dietary ingredients.”
Under DSHEA, and subject to exceptions not
relevant here, a dietary supplement can be condemned as
adulterated only if the FDA carries the burden of proving
that the substance presents a “significant or unreasonable
risk of illness or injury” under recommended, suggested,
or ordinary conditions of use. Id. § 342(f)(1)(A). The FDA
did not attempt to make that showing for the DMAA
products it seized from Hi-Tech. A ruling that DMAA is
a dietary supplement thus would resolve this appeal in
Hi-Tech’s favor.

5a
Appendix A
On the other hand, a ruling that DMAA is a “food
additive” would resolve the dispute in the FDA’s favor.
A substance intended for human consumption is a food
additive if it is not a dietary supplement and is not
“generally recognized, among experts qualified by
scientific training and experience to evaluate its safety,
as having been adequately shown through scientific
procedures . . . to be safe under the conditions of its
intended use.” Id. § 321(s). For a substance in common
use in food prior to January 1, 1958—this does not include
DMAA—the adequate showing of safety can be made not
only by scientific procedures but also by experience. There
are other exceptions to this definition of “food additive,”
but none applies here.
The FDA asserts that DMA A is not a dietary
supplement, is not generally recognized as safe, does not
meet any other exception, and is therefore a food additive.
Hi-Tech insists that DMAA is a dietary supplement and
thus is not a food additive, but that even if DMAA is not
a dietary supplement, DMAA is generally recognized as
safe and thus still is not a food additive.
The issues thus are first, whether Hi-Tech’s DMAA
products are “an herb or other botanical” or “a concentrate,
metabolite, constituent, extract, or combination of” an
herb or other botanical, and second, if not, whether the
products are generally recognized as safe. Secondary
issues are whether the FDA was entitled to seize and
forfeit the products without engaging in rulemaking and
whether the district court should have reopened discovery.

6a
Appendix A
IV. DMAA
The earliest known identification or use of DMAA
occurred in 1944. In that year Eli Lilly & Co. synthesized
and patented DMAA for use as a nasal decongestant. For
marketing reasons, Eli Lilly asked the FDA to withdraw
its approval of this use in 1983. At least insofar as shown by
this record, DMAA was not used as a dietary supplement
or food additive at that time, and no health concerns had
been noted.
DMAA eventually made a resurgence, this time
in fitness products aimed at bodybuilders and other
athletes. Because of DMAA’s noticeable stimulant effect,
the compound made its way into pre-workout energy and
fat-burner products around the world.
The FDA eventually adopted the position that DMAA
is not a dietary supplement but an unsafe food additive.
The FDA issued cease-and-desist letters to at least some
entities marketing DMAA products. Perhaps unaware of
Hi-Tech’s marketing of DMAA products, the FDA did not
issue a cease-and-desist letter to Hi-Tech.
Around the same time, researchers began to find
trace amounts of DMAA in geraniums of the genus
pelargonium. A 2013 survey concluded that overall, the
studies showed that DMAA “is found naturally in some,
but not all, geranium plants and extracted geranium
oils.” Thomas D. Gauthier, Evidence for the Presence
of 1,3-Dimethylamylamine (1,3-DMAA) in Geranium
Plant Materials, 8 Analytical Chemistry Insights 29-40

7a
Appendix A
(2013), available at https://www.ncbi.nlm.nih.gov/pmc/
articles/PMC3682735/. Indeed, the FDA’s own expert
had previously participated in a study that found trace
amounts of DMAA in geraniums.
Even so, this record presents a genuine factual dispute
over whether trace amounts of DMAA are naturally
contained in geraniums. On the one hand, studies have
found trace amounts of DMAA in geraniums. On the
other hand, some fertilizers contain DMAA that could
be a source of trace amounts of DMAA in geraniums,
and the record includes competent testimony that there
is no known pathway by which geraniums could produce
DMAA. Either way, it is clear that DMAA is not contained
in geraniums in amounts greater than could reasonably
be characterized as trace amounts. No study has found a
greater amount.
V. “Herb or Other Botanical”
The first rule of statutory construction is to apply
the plain meaning of the statutory language. See, e.g.,
Bankston v. Then, 615 F.3d 1364, 1367 (11th Cir. 2010).
Here the meaning is not completely clear.
Hi-Tech says DSHEA uses “botanical” to mean all
plant life, nothing more and nothing less—that is, to
mean flora, without limitation. The suggestion is sensible
enough—“botany” is the study of plants. On the other
hand, it would be passing strange for a writer wishing
to cover the universe of plant life—to mean all flora—
to achieve that result through the term “herb or other

8a
Appendix A
botanical.” Moreover, the usual connotation of “botanical”
when used as a noun, as recognized in dictionaries in use
when DSHEA was enacted as well as those is use today,
is a substance derived from a plant used for a limited
category of purposes.
In 1993, a year before DSHEA became law, MerriamWebster’s defined the noun “botanical” as a “a plant part
or extract used esp[ecially] in skin and hair care products.”
“Botanical,” Merriam-Webster’s Collegiate Dictionary
134 (10th ed. 1993). The current edition defines the noun
“botanical” as a “substance obtained or derived from a
plant[,] such as . . . a plant part or extract used especially
in skin and hair care products[,] a medicinal preparation
derived from a plant[, or] plant material used as a flavoring
agent.” “Botanical,” Merriam-Webster’s Online Dictionary
2019, available at https://www.merriamwebster.com/
dictionary/botanical. Neither definition suggests that
the noun “botanical” includes an artificially produced
substance that, entirely coincidentally, may be found
in trace amounts in a plant. Nor do they suggest that
“botanical” includes all flora.
Both the Supreme Court and the Eleventh Circuit
have relied on Merriam-Webster’s as an aid in construing
statutes. See, e.g., Octane Fitness, LLC v. ICON Health
& Fitness, Inc., 572 U.S. 545, 553 (2014); Burlington N. &
Santa Fe Ry. Co. v. United States, 556 U.S. 599, 611 (2009);
United States v. Zuniga-Arteaga, 681 F.3d 1220, 1224
(11th Cir. 2012); Arriaga v. Fla. Pac. Farms, LLC, 305
F.3d 1228, 1242 (11th Cir. 2002). This does not make these
cited definitions of “botanical” dispositive; dictionaries are

9a
Appendix A
not controlling and in any event give examples to convey
a term’s most common uses, not necessarily to suggest
limits. But the narrower connotation suggested by the
dictionaries is consistent with DSHEA’s use of the term
“herb or other botanical” rather than a broader term
plainly encompassing all plant life.
To be sure, the difference between Hi-Tech’s broad
view—all flora—and the narrower dictionary definitions
is not as stark as might appear at first blush. That a
substance derived from a plant is used in a dietary product
brings it close to the current dictionary definition, which
includes a medicinal preparation derived from a plant.
Still, the use of “herb or other botanical” in the
statute, together with the dictionary definitions of a
botanical as “derived from a plant,” supports a much
narrower construction than Hi-Tech proposes. Had
Congress meant all plants and anything contained in
them, it could have said so. It did not. At the least, the
com/dictionary/botanical. Neither definition suggests
that the statutory language and dictionary definitions
support a conclusion that would be reasonable anyway:
it is unlikely that Congress used the term “herb or other
botanical” to mean a substance invented in a laboratory
and artificially produced, that can be found in a plant
only in trace amounts, only coincidentally, and that has
never been derived from a plant for use in any medicinal,
cosmetic, or dietary product.

10a
Appendix A
VI. “Constituent”
The statutory definition of a dietary supplement
extends not only to an “herb or other botanical” but also
to “a concentrate, metabolite, constituent, extract, or
combination of” an herb or other botanical. 21 U.S.C.
§ 321(ff)(1)(F). Hi-Tech asserts “constituent” means
anything naturally contained in. The word could be
given that meaning, but the connotation is usually not
so broad. Indeed, both the 1993 edition and the current
edition of Merriam-Webster’s define “constituent” as
“an essential part.” “Constituent,” Merriam-Webster’s
Collegiate Dictionary 248 (10th ed. 1993); “Constituent,”
Merriam-Webster Online Dictionary 2019, available at
https://www.merriam-webster.com/dictionary/constituent.
This definition suggests a connotation much narrower
than proposed by Hi-Tech and too narrow to include the
DMAA—if there is any—contained in geraniums.
For its part, the FDA says Hi-Tech’s proposed
definition of “constituent” would render superfluous the
statute’s inclusion of the word “extract.” The FDA says
the meaning of “constituent” must be informed by the
other words in the statutory list, under the canon noscitur
a sociis. See In re Piazza, 719 F.3d 1253, 1263 n.4 (11th
Cir. 2013) (discussing this canon); Antonin Scalia & Bryan
A. Garner, Reading Law: The Interpretation of Legal
Texts (“Reading Law”) 195-98 (2012) (same). The “most
common effect of the canon is not to establish which of
two totally different meanings applies but rather to limit
a general term to a subset of all the things or actions that
it covers—but only according to its ordinary meaning.”
Reading Law at 196.

11a
Appendix A
A concentrate or extract of a product is derived from
the product in usable form or amount. So is a combination
of the product with another substance. A metabolite, too, is
physically derived from a product. If, as Hi-Tech asserts,
constituent means anything contained in, the word is
both markedly different from the others in the list and
awkwardly placed—the broadest term in a five-item list
but placed not first or last but in the center.
None of this is dispositive. The safest conclusion is this:
it is unlikely that Congress used the term “constituent” to
mean a substance that is present in a plant in only trace
amounts and that has never been derived from a plant for
use in any medicinal, cosmetic, or dietary product.
VII.

The Reason for the Statutory Presumption

As set out above, DSHEA gives a preference to
dietary supplements. The FDA can condemn a dietary
supplement as adulterated only on a showing that it
presents a “significant or unreasonable risk of illness
or injury” under recommended, suggested, or ordinary
conditions of use. 21 U.S.C. § 342(f)(1)(A). This is, in effect,
a rebuttable presumption that the product is safe when
used as intended.
A principal reason for rebuttable presumptions,
whether in statutes or other legal constructs, is
administrative convenience. When a proposition is usually
true, it sometimes makes sense to presume it is true,
subject only to rebuttal in the occasional instance when
it is not true. Perhaps more importantly, at least in the
regulatory context, a presumption can avoid unnecessary

12a
Appendix A
expense and delay—a person or entity can go forward with
proposed action without awaiting regulatory approval.
This approach works best when a proposition is usually
true and when the rebuttable presumption is clear and
easily applied—otherwise the unnecessary expense and
delay is not likely to be avoided.
DSHEA well illustrates this approach. Congress
thought it better to have a clear, administrable rule—
dietary supplements are presumed safe, subject only to
a contrary showing—than to require a particularized
inquiry in every case. See S. Rep. No. 103-410, at 21-22
(1994). A fair inference is that herbs and other botanicals
and their constituents made the list of favored dietary
ingredients because consuming them is ordinarily safe.
Consuming most herbs or other botanicals, though
surely not all, is safe. The same is true even for most
plants, and people have been consuming plants for as
long as there have been people. Congress reasonably
could choose to treat any product derived from a plant
as adulterated only on a showing that it is unsafe. A
rebuttable presumption for anything derived from a plant
would serve administrative convenience and avoid delay
in introducing a product to the market.
It is a stretch, though, to apply the same reasoning
to a substance invented in a laboratory and artificially
produced, that can be found in a plant, if at all, only in
trace amounts, only coincidentally, and that has never been
derived from a plant for use in any medicinal, cosmetic,
or dietary product. The fact that DMAA can be found

13a
Appendix A
in trace amounts in geraniums, if true, says absolutely
nothing about whether consuming the substance is safe.
Nor does applying a rebuttable presumption to a
substance of this kind serve administrative convenience.
It is easy enough to identify plants or substances actually
derived from plants. But as this case illustrates, it is not
always easy to determine whether a product invented in
a laboratory and artificially manufactured can be found
in trace amounts in some plant somewhere in the world.
There is no reason to believe that when it adopted
DSHEA, Congress intended to put in place a rebuttable
presumption that such a product is safe. We hold that
DSHEA does not go that far.
This does not mean that DSHEA applies only to
products actually derived from plants, not those artificially
manufactured. If a product is indeed a dietary supplement
because it contains a qualifying dietary ingredient—
including, for example, an herb or other botanical—a
manufacturer may take the dietary ingredient from nature
or produce it artificially. But there must be a qualifying
dietary ingredient. The ability to create a substance in a
laboratory and manufacture it artificially does not give a
substance that status. Nor does coincidentally identifying
the substance in trace amounts in some plant somewhere
in the world.

14a
Appendix A
VIII. Generally Recognized as Safe
Hi-Tech says DMA A is generally recognized as
safe—or, to quote the statute’s more exacting standard,
DMAA is “generally recognized, among experts qualified
by scientific training and experience to evaluate its safety,
as having been adequately shown through scientific
procedures . . . to be safe under the conditions of its
intended use.” 21 U.S.C. § 321(s). The FDA’s rule on this
concludes that a substance meets this standard only when,
based on “common knowledge throughout the scientific
community knowledgeable about the safety of substances
directly or indirectly added to food,” there is “reasonable
certainty that the substance is not harmful under the
conditions of its intended use.” 21 C.F.R. § 170.30(a).
As the statutory requirement for general recognition
makes clear, the issue is not whether, as an original matter,
the factfinder in a legal proceeding would evaluate the
evidence and conclude that a substance is safe. The issue is
only whether the substance is generally recognized as safe
among qualified experts based on adequate studies. To
establish the contrary, the FDA “need only show the lack
of the proper reputation . . . for safety of the [substance]
among the appropriate experts, or that what reputation
there is, is not based on adequate studies.” United States
v. Articles of Food & Drug Consisting of Coli-Trol 80,
F4C-60 Feed Grade, Entrol-S Medicated, Entrol-P, 518
F.2d 743, 746 (5th Cir. 1975). As a pre-Bonner decision of
the Fifth Circuit, Coli-Trol remains binding in this court.
See Bonner v. City of Prichard, 661 F.2d 1206, 1207 (11th
Cir. 1981) (en banc). Other circuits, too, have enforced the

15a
Appendix A
requirement for general recognition. See United States v.
Article of Food, 752 F.2d 11, 15 n.4 (1st Cir. 1985); Premo
Pharmaceutical Labs., Inc. v. United States, 629 F.2d
795, 803-05 (2d Cir. 1980).
The FDA made the required showing. Multiple
sources, including in peer-reviewed publications, call into
question DMAA’s safety. Among their conclusions: DMAA
may cause increases in blood pressure and hemorrhagic
stroke; individuals with blood pressure of 120/80 mmHg
or higher (much of the American population) should avoid
DMAA; use of DMAA has been associated with multiple
adverse events, including deaths; and DMAA may inhibit
activity of liver enzymes and cause liver toxicity.
After four soldiers died with DMAA in their systems,
the Department of Defense removed all DMAA products
from military exchanges and commissioned a Safety
Review Panel. The Panel issued a report finding that
“deaths, hepatic failure, myocardial infarction, heat
stroke and rhabdomyolysis, seizure and stroke” were
temporally associated with service members’ “use of
[DMAA-containing] products.” U.S. Dep’t of Def., Report
of the Department of Defense 1,3 Dimethylamylamine
(DMAA) Safety Review Panel 9 (2013). The report said
this suggested that some individuals “may be predisposed
to severe health consequences after using DMAA.” Id. The
report said there appeared to be “significant association of
DMAA use, particularly high frequency DMAA use, and
multiple adverse events.” Id. And the report concluded that
“the available evidence supports an elevated health risk
associated with the use of DMAA-containing products.”

16a
Appendix A
Id. The Department continued its ban on DMAA products
at military exchanges. Id. at 10-11.
With this track record, it is hardly surprising that
the FDA’s expert in food chemical risk management
determined that DMAA is not generally recognized as
safe by qualified experts.
Hi-Tech asserts, though, that the studies and reports
on which the FDA relies involve DMAA use in doses
greater than Hi-Tech recommends. Hi-Tech says that use
of DMAA as intended does not present the same risks.
Hi-Tech cites studies and presents expert testimony
concluding that DMAA is safe at the recommended doses.
Hi-Tech’s submissions are far from conclusive. The
studies use small sample sizes and look at short-term
results. None measure the effect of DMAA in high-risk
populations or on individuals with elevated blood pressure.
And while some but not all of the FDA’s cited studies
involve high doses of DMAA, it seems unlikely that all the
adverse events suffered by military personnel and others
resulted from abnormal or unintended use. Correlation
is not causation, but neither must correlation be ignored.
If the issue was whether DMAA is safe, Hi-Tech’s
evidence would create a genuine issue of fact precluding
summary judgment; neither side’s evidence is conclusive.
See Sparling v. Doyle, No. EP-13-CV-323-DCG, 2015
WL 4528759 at *20 (W.D. Tex. July 27, 2015) (“It is clear
. . . that the scientific literature on DMAA presents
insufficient data to conclude that DMAA is safe or that
DMAA causes harm because the sample sizes are too

17a
Appendix A
small.”). But the issue is not whether DMAA is safe; the
issue is only whether DMAA is generally recognized as
safe. It plainly is not. On the issue of general recognition,
the FDA was entitled to summary judgment.
IX.

The Motion to Reopen Discovery

The district court provided ample time for discovery—
the full amount the parties requested. The parties
submitted cross-motions for summary judgment without
asking for more time or asserting that any further
discovery was needed. But after the court granted
summary judgment for the FDA, Hi-Tech moved to
reconsider, taking issue with the court’s legal analysis and
asserting the court should reopen discovery. Hi-Tech said
it needed more discovery because the court’s legal analysis
did not match up with the position argued by either side.
Ours is an adversary system. When, as here, there are
two sides, each side is afforded the opportunity to argue
its position. But the court is not limited to choosing one
side’s position or the other’s. The court’s role is to get it
right, not to choose which side’s argument is better and
adopt it lock, stock, and barrel. See, e.g., United States
v. Baston, 818 F.3d 651, 663 (11th Cir. 2016) (concluding
that on a disputed legal issue, “[n]either party is correct,”
and applying the correct standard that neither party
advocated); see also Colburn v. Odom, 911 F.3d 1110 (11th
Cir. 2018) (resolving an appeal on a ground not addressed
in either side’s brief but essential to proper resolution of
the dispute). Were it otherwise, there would be no plainerror doctrine.

18a
Appendix A
Thousands of cases could be cited illustrating this
principle. Indeed, the principle is so well settled that it is
rarely mentioned. When a court adopts a view of the law
that is not precisely in line with either side’s argument,
the court usually sets out its view of the law without
citing authority for the proposition that it may do so. The
Supreme Court has explained it this way: “[w]hen an
issue or claim is properly before the court, the court is
not limited to the particular legal theories advanced by
the parties, but rather retains the independent power to
identify and apply the proper construction of governing
law.” U.S. Nat’l Bk. of Oregon v. Independent Ins. Agents
of Am., Inc., 508 U.S. 439, 446 (1993) (quoting Kamen v.
Kemper Fin. Servs., Inc., 500 U.S. 90, 99 (1991)).
Hi-Tech is correct that the district court did not simply
accept either side’s view of the facts and law. Nor should
the court have done so; neither side had it just right.
Similarly, on appeal, we have not simply chosen one side’s
view or the other’s; we have considered the arguments and
provided the analysis we believe is correct. One would
expect nothing less.
Hi-Tech says, though, that it was blindsided when the
district court emphasized that DMAA has never actually
been derived from geraniums for use in any product.
Hi-Tech says it needs more discovery to fully present its
position on this issue—to attempt to find evidence that
DMAA has in fact been derived from geraniums.
The assertion misses the mark for two reasons, either
of which would be sufficient standing alone.

19a
Appendix A
First, Hi-Tech could not have been surprised that
the court considered whether DMAA has actually been
derived from geraniums. The question leaps off the page
at anyone first considering the issues in this case. Hi-Tech
asserts it does not matter whether DMAA has actually
been derived from geraniums—a colorable position—but
Hi-Tech could not have missed the possibility that a court
would disagree.
Second, regardless of whether Hi-Tech recognized
or should have recognized that a court might find actual
derivation critical, Hi-Tech had every incentive to fully
develop the facts on this during the original discovery
period. An intensely disputed issue was whether DMAA
was contained in geraniums. Hi-Tech said yes; the FDA
said no. The best support Hi-Tech could have garnered
for its position on this issue—as Hi-Tech surely knew—
was evidence that DMAA had actually been derived
from geraniums. The reason one can’t get blood from a
turnip is that there is no blood in a turnip. The reason one
can get juice from an orange is that oranges are full of
juice. The reason Hi-Tech found no evidence during the
original discovery period that DMAA had actually been
derived from geraniums was not because Hi-Tech didn’t
know to look; it was because no such evidence existed. Or
perhaps because, despite every incentive to do so, Hi-Tech
couldn’t find it in the ample time it requested—and the
court provided—for discovery. Hi-Tech is not entitled to
more time.
The district court did not abuse its discretion when it
declined to reopen discovery.

20a
Appendix A
X. The Absence of Rulemaking
Hi-Tech faults the FDA for bringing a forfeiture
action rather than proceeding through rulemaking. But
it is “well established” that “agencies have discretion to
choose whether to proceed by rulemaking or adjudication.”
RTC Transp. Inc. v. ICC, 731 F.2d 1502, 1505 (11th Cir.
1984). Not surprisingly, then, we have upheld a forfeiture
judgment in favor of the FDA against a food additive
without requiring rulemaking. See United States v.
Articles of Food & Drug Consisting of Coli-Trol 80, F4C60 Feed Grade, Entrol-S Medicated, Entrol-P, 518 F.2d
743, 746 (5th Cir. 1975); see also United States v. Article of
Food, 752 F.2d 11, 15-16 (1st Cir. 1985). The FDA was not
required to engage in rulemaking but could elect instead
to proceed through a forfeiture action against Hi-Tech’s
DMAA products.
Proceeding in this manner did not violate the
Constitution. The governing statute provides notice that
unapproved food additives are subject to forfeiture. 21
U.S.C. § 334(a)(1). The statute is not unconstitutionally
vague, and Hi-Tech doesn’t claim it is. As part of the
forfeiture proceeding, Hi-Tech was afforded the full range
of procedural due process available in a federal court. The
issues were joined and fully adjudicated on the merits.
Due process requires nothing more.
XI. Conclusion
DMAA is not an “herb or other botanical.” It is not a
“constituent” of an herb or other botanical. And it is not

21a
Appendix A
generally recognized by qualified experts, as adequately
shown through scientific procedures, to be safe under the
conditions of its intended use. The district court properly
so ruled. The decision is
AFFIRMED.

22a
Appendix A
JORDAN, Circuit Judge, concurring in part and
dissenting in part.
This is a difficult case, and in my opinion there is
no “right” or “wrong” answer to the principal statutory
question we confront. The majority opinion sets out one
plausible interpretation of 21 U.S.C. § 321(ff)(1)(C) & (F),
but I read the statute differently. So, although I join Parts
I–IV and VIII–X of the majority opinion, I respectfully
dissent from Parts V–VII.
*****
As relevant here, § 321(ff)(1)(C) & (F) provides that a
product is a “dietary ingredient”—and therefore can be
marketed without FDA pre-approval—if it contains “an
herb or other botanical” or a “concentrate, metabolite,
constituent, extract, or combination of any ingredient” in
an “herb or other botanical.” Hi-Tech contends that DMAA
satisfies these definitions because it is a “constituent”
of a geranium plant and therefore a “constituent” of a
“botanical.” See Br. for Appellant at 8. So we need to figure
out what the words “herb,” “botanical,” and “constituent”
mean.
The principal dictionary definition for the word “herb”
concerns its status as flora: a plant whose stem is not
woody and persistent, and which generally dies at the
end of its flowering or growing season. See The American
Heritage Dictionary of the English Language 820 (4th ed.
2009); Webster’s Third New International Dictionary of
the English Language Unabridged 1058 (2002); 1 Shorter

23a
Appendix A
Oxford English Dictionary 1228 (5th ed. 2002). It is also,
but secondarily, defined as a part of a plant that is useful
for food or medicine. See id. (“A . . . plant used for flavoring
or scent, in medicine, etc.”).
Some dictionary definitions of the noun “botanical”
refer to a drug, medicinal preparation, or similar substance
obtained or derived from a plant or several plants. See The
American Heritage Dictionary of the English Language
215 (4th ed. 2009); The Random House College Dictionary
157–58 (1973). Some even refer to the drug or preparation
as crude, or maintaining the ingredient more or less in
its natural state. See Webster’s Third New International
Dictionary of the English Language Unabridged 258
(2002); McGraw-Hill Dictionary of Scientific and Technical
Terms 272 (6th ed. 2003). But as the FDA concedes, see Br.
for Appellee at 16, “botanical” also is defined as the plant
(or part of the plant) itself. See, e.g., Merriam-Webster’s
Collegiate Dictionary 134 (10th ed. 1994) (“a plant part
or extract used sp. in skin and hair care products”); The
American Heritage Dictionary of the English Language
298 (3d ed. 1993) (“of or relating to plants or plant life”).
The statute uses “other botanical” in conjunction with
“herb.” It therefore seems to me that the word “botanical”
contextually refers to a plant or part of a plant, and not a
drug or medicinal preparation derived from a plant. See
generally Dole v. United Steelworkers of America, 494
U.S. 26, 36 (1990) (explaining that “words grouped in a
list should be given related meaning”) (internal quotation
marks and citation omitted). And a geranium is certainly
a plant.

24a
Appendix A
That leaves the word “constituent.” It means a
component or element of a whole, and—significantly—not
all dictionaries require the component or element to
be “essential.” See, e.g., 1 Shorter Oxford English
Dictionary 496 (5th ed. 2002) (“an element of a complex
whole”); The American Heritage Dictionary of the English
Language 394 (4th ed. 2009) (“[s]erving as part of a
whole; component”); Webster’s Third New International
Dictionary of the English Language Unabridged 258
(2002) (“a thing, person, or organism that along with
others serves in making up a complete whole or unit”).
As the majority acknowledges, there is evidence that
geraniums contain a trace amount of DMAA. See Maj.
Op. at 7–8. There is also evidence, however, that some
fertilizers contain DMAA—which could be the source of
trace amounts in geraniums—and that geraniums have
no known pathways of producing DMAA. Id. Viewing the
record in the light most favorable to Hi-Tech, there is a
genuine issue of material fact as to whether DMAA—even
in trace amounts—is a “constituent” (i.e., a component or
element) of geraniums.
*****
In my view, the statutory text does not provide a basis
for the district court’s conclusion that a “constituent” of
a “botanical” must have a history of being extracted in
usable quantities, or for the majority’s holding that to
be a “constituent” an ingredient must have been derived
from a plant for use in a medicinal, cosmetic, or dietary

25a
Appendix A
product. Indeed, reading “constituent” to mean something
that has been taken out of a plant in usable amounts may
make “extract”—another statutory term—surplusage.
The statute lists “constituent” among several other
words: “a concentrate, metabolite, constituent, extract,
or combination thereof.” § 321(ff)(1)(F). When Congress
uses “or” to separate several words in a list, that term’s
“ordinary use is almost always disjunctive, that is, the
words it connects are to be given separate meanings.”
Loughrin v. United States, 573 U.S. 351, 357 (2014). As a
noun, the term “extract” means “something extracted .
. . a preparation obtained by evaporation (as of a solution
of a drug or the juice of a plant).” Webster’s Third New
International Dictionary of the English Language
Unabridged 806 (2002). Again, “constituent” is broadly
defined as a part of something else, and ascribing a
more narrow definition would eliminate any independent
meaning Congress intended by using “extract.” See Yates
v. United States, 135 S. Ct. 1074, 1085 (2015) (explaining
that courts should “avoid ascribing to one word a meaning
so broad that it is inconsistent with its accompanying
words”) (internal quotation omitted).
The majority’s contrary interpretation of § 321(ff)(1)
(C) & (F) seems influenced by policy reasons which call for
a narrower reading of the statutory text. See Maj. Op. at
13–14. I do not challenge those reasons, but believe they
are not ours to consider. See Sturges v. Crowninshield, 17
U.S. 122, 202 (1819) (we should not “infer from extrinsic
circumstances, that a case for which the words of an
instrument expressly provide, shall be exempted from

26a
Appendix A
its operation”). Although the statutory reading advocated
by Hi-Tech is expansive, that reading squares with the
broad language Congress chose. As the Supreme Court
has told us, “the fact that a statute can be applied in
situations not expressly anticipated by Congress does not
demonstrate ambiguity. It demonstrates breadth.” Pa.
Dept. of Corrections v. Yeskey, 524 U.S. 206, 212 (1998)
(internal quotation marks and citation omitted).
*****
As I read the statute and the record, the FDA was
not entitled to summary judgment. I would remand for a
trial on whether DMAA is a “constituent” of geraniums.

27a
Appendix
B DENYING
APPENDIX B
— ORDER
RECONSIDERATION IN THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN
DISTRICT OF GEORGIA, ATLANTA DIVISION,
FILED JUNE 2, 2017
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA,
ATLANTA DIVISION
CIVIL ACTION NO. 1:13-CV-3675-WBH
June 2, 2017, Decided
June 2, 2017, Filed
UNITED STATES OF AMERICA,
Plaintiff,
v.
QUANTITIES OF FINISHED
AND IN-PROCESS FOODS, et al.,
Defendants.
ORDER
On April 3, 2017, this Court entered an order granting
the Government’s motion for summary judgment and
directing the Clerk to enter judgment in the Government’s
favor. [Doc. 140]. Hi-Tech Pharmaceuticals, Inc., and its
CEO (collectively Hi-Tech) have now filed a motion for
reconsideration. [Doc. 142].

28a
Appendix B
In its motion, Hi-Tech first argues that this Court
improperly “encroached on the policy making prerogative
of Congress,” [Id. at 14], by determining that in using
the term “botanical” in 21 U.S.C. § 321(ff), “Congress
intended that there must be at least some history of the
substance in question having been extracted in usable
quantities from a plant or a plant-like organism.” [Doc. 140
at 9]. This Court disagrees. As noted in the order, there
is nothing in the statutory scheme, the legislative history,
or the case law that provides even the slightest guidance
of congressional intent regarding the use of “botanical.”
Accordingly, this Court turned to the standard canons of
statutory construction to determine what Congress meant
by first looking at the term’s ordinary meaning. Under that
meaning, a botanical — and by extension, a constituent of
a botanical — is something that comes from a plant, and
none of the DMAA ever placed in a product for sale has
come from a plant. This Court thus concluded that DMAA
is not a botanical, and whether or not the Government
advocated that interpretation is of no moment.1
Hi-Tech’s next argument is based on its incorrect
interpretation of this Court’s order. This Court did not
conclude that DMAA was not a botanical because there
is no evidence that DMAA can be extracted in a usable
quantity. Rather, this Court held that, in order for a
substance to be a botanical, there must be some history
of its having been so extracted. As stated, the DMAA in
the marketplace has never come from a plant.
1. In response to Hi-Tech’s footnote 4, [Doc. 142 at 17-18 n.4],
this Court did not state, or even suggest, that geraniums are an
obscure plant.

29a
Appendix B
As to Hi-Tech’s argument that, until this Court issued
the order, it did not know that “the ability to extract
DMAA from geraniums in a ‘usable quantity’” was in
dispute, [Doc. 142 at 22], this Court again points out
that the ability to extract usable quantities of DMAA
from geraniums is not the issue. The question is whether
someone has extracted DMAA from geraniums or some
other plant and placed that DMAA in a product, and it
is obvious from the record that no one has done that.
If someone had, there would not have been a dispute
regarding whether DMAA was a botanical in the first
instance.
For the reasons discussed, Hi-Tech’s motion for
reconsideration, [Doc. 142], is DENIED, and its motion
for a stay, [Doc. 143], is DENIED as moot.
IT IS SO ORDERED, this 2 day of June , 2017.
/s/ Willis B. Hunt, Jr.
WILLIS B. HUNT, JR.
UNITED STATES
DISTRICT JUDGE

30a
C THE UNITED
APPENDIX C —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF GEORGIA, ATLANTA DIVISION,
FILED APRIL 3, 2017
IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF GEORGIA,
ATLANTA DIVISION
CIVIL ACTION NO. 1:13-CV-3675-WBH
April 3, 2017, Decided
April 3, 2017, Filed
UNITED STATES OF AMERICA,
Plaintiff,
v.
QUANTITIES OF FINISHED
AND IN-PROCESS FOODS, et al.,
Defendants.
ORDER
Hi-Tech Pha r maceuticals, Inc., sells dieta r y
supplements, including weight loss products containing
1, 3 Dimethylamylamine, commonly known as DMAA. The
Federal Food and Drug Administration, contending that
DMAA is a food additive that is not generally recognized
as safe and that products containing DMAA are subject
to seizure under federal law, seized a great deal of

31a
Appendix C
Hi-Tech’s product and initiated this in rem forfeiture
action. In response, Hi-Tech and its CEO entered the
forfeiture action as claimants, contending that its DMAA
products were not subject to seizure under the law
and demanded that the Government1 return Hi-Tech’s
products. Hi-Tech also filed suit against the Government,
which action was merged into this forfeiture action. Both
sides have now filed motions for summary judgment, and
this Court now considers those motions.
Discussion
Summary judgment is appropriate where “‘there is
no genuine issue as to any material fact and the moving
party is entitled to a judgment as a matter of law.’” Wooden
v. Bd. of Regents of the Univ. Sys. of Ga., 247 F.3d 1262,
1271 (11th Cir. 2001) (quoting Fed. R. Civ. P. 56(c)).
The Federal Food, Drug, and Cosmetic Act and the
Dietary Supplement Health and Education Act
The Federal Food, Drug, and Cosmetic Act (FDCA),
21 U.S.C. § 301 et seq., is a set of laws dating to 1938
that give authority to the FDA to oversee and regulate
the safety of food, drugs, and cosmetics. The Dietary
Supplement Health and Education Act of 1994 (DSHEA)
amended the FDCA to require the FDA to characterize
dietary supplements as food rather than drugs. Further,
1. Hereinafter, “Hi-Tech” refers to both Hi-Tech and Jared
Wheat. “The Government” refers to the FDA, the Commissioner
of the FDA, and any other federal entities or individuals involved
in this case.

32a
Appendix C
while the FDA may still establish standards for dietary
supplements, the DSHEA shifted the burden of proof to
the Government to have a dietary supplement declared
unsafe and removed from commerce.
Under the DSHEA, this Court must first determine
whether DMAA is a “dietary ingredient” or a “food
additive.” 21 U.S.C. § 321(s), (ff). If DMAA is determined
to be a dietary ingredient, the seized Hi-Tech products
qualify as dietary supplements which cannot be removed
from commerce by the Government unless the FDA
establishes that it “presents a significant or unreasonable
risk of illness or injury under . . . conditions of use
recommended or suggested in labeling,” and this Court
so finds “on a de novo basis.” 21 U.S.C. § 342(f).
If the substance is determined not to be a dietary
ingredient, then this Court must determine whether that
substance is “generally recognized as safe.” Id. § 321(s).
If the substance is not generally recognized as safe, it is
a food additive and presumed to be unsafe so that any
supplements containing that substance are adulterated
under the statute.
Whether DMAA is a Dietary Ingredient
Relevant to this case, dietary ingredients include “an
herb or other botanical . . . or a concentrate, metabolite,
constituent, extract, or combination of” an herb or other
botanical. 21 U.S.C. § 321(ff). Accordingly, the first issue
that must be determined under the statutory scheme is
whether DMAA is a “botanical” as that word is used in

33a
Appendix C
the statute. The Government stipulates that it bears the
burden of proving that DMAA is not a botanical.
Nothing in the legislative history of the DSHEA or in
the case law gives any guidance regarding what Congress
meant by “botanical” in § 321(ff). Hi-Tech does not provide
a definition of a botanical under the statute in its summary
judgment motion. The Government asserts that a botanical
is “a plant, alga, or fungus, or a physical part or secretion
of a plant, alga, or fungus, such as bark, leaves or fruits.”
In support of this assertion, the Government cites to the
affidavit of its expert, Cara Welch. In her affidavit, Dr.
Welch gives generally the same definition of a botanical
and cites to her report. Dr. Welch’s report gives that
same definition for botanical and cites to an online FDA
publication 2 that gives the same definition in its glossary
without citation to anything. The FDA publication merely
purports to provide guidance to industry regarding the
requirements of providing notice to the FDA relating to
new dietary ingredients. The publication does not appear
to be a scientific paper and there is no indication of who
wrote it. In short, the Government has failed to provide
an adequate basis for its interpretation of Congressional
intent in using the term “botanical” in § 321(ff). This Court
thus finds that the Government’s definition is arbitrary
and not entitled to deference under Chevron, U.S.A., Inc.
v. Nat. Resources Def. Council, Inc., 467 U.S. 837, 104 S.
Ct. 2778, 81 L. Ed. 2d 694 (1984).
2. Dietary Supplements: New Dietary Ingredient Notifications
an d Rel ated Issues: G uid ance fo r In dustr y, ava i lable at
https://w w w.fda .gov/dow nloads/ Food /GuidanceReg ulation /
GuidanceDocumentsRegulatoryInformation/UCM515733.pdf

34a
Appendix C
Hi-Tech has presented fairly substantial evidence that
trace amounts of DMAA have been found in a species of
a geranium plant in the form of three published papers
that provided the details of tests detecting DMAA. The
Government has asserted three arguments to dispute
the presence of DMAA in geraniums, but this Court
finds that those arguments are not sufficient to meet the
Government’s burden of establishing that DMAA is not
in geraniums. This Court is first unimpressed by the
Government’s arguments regarding the fact that other
studies have failed to find the presence of DMAA in
geraniums. In particular, this Court takes judicial notice
of a paper, Thomas D. Gauthier, Evidence for the Presence
of 1,3-Dimethylamylamine (1,3-DMAA) in Geranium
Plant Materials, A nalytical Chemical Insights, 8: 2940 (2013) available at https://www.ncbi.nlm.nih.gov/ pmc/
articles/PMC3682735/, in which the author surveyed the
various studies that either found or did not find DMAA
in geranium plants. He concluded that, “[o]verall, these
studies show that 1,3-DMAA is found naturally in some,
but not all, geranium plants and extracted geranium oils.”
The author further opined that the studies that failed to
find DMAA used extraction techniques that may not have
been suitable for retention of DMAA due to its volatility.
It is undisputed that at least three different studies found
DMAA in geraniums, and the fact that other studies,
which may well have used different methodologies, did
not detect DMAA is not determinative.
This Court is likewise unswayed by the Government’s
argument that it is impossible for the geranium in question
to synthesize DMAA. In its motion for summary judgment,

35a
Appendix C
the Government asserts that: “The uncontroverted
evidence is clear: Geraniums cannot make DMAA. There
is no biological process or biosynthetic pathway by which
a geranium plant could do so.” However, the expert that
the Government cites for this statement is nowhere near
as unequivocal. Rather, she states that it is “metabolically
improbable” that DMAA naturally occurs in geranium
plants, and points out that “[t]hose suggesting [DMAA]
is naturally occurring in [geraniums] have not proposed
a biosynthetic pathway by which the compound could be
produced nor provided any evidence that such a pathway
exists,” [Doc. 113-1 at 29, 27], which is nothing close to
uncontroverted evidence that geraniums cannot make
DMAA. Further, the question as presented by the parties
is whether DMAA has been detected in geraniums, not
how the geraniums happened to put the chemical there.
Finally, in response to the Government’s argument
that the geraniums from one of the studies may have
been contaminated by fertilizer that contained DMAA,
the argument fails to address the fact that other studies
did find DMAA.
Admittedly, there are reasons to doubt the veracity of
the studies that detected DMAA in geraniums given the
questions raised by the Government and the fact that the
amounts found were so small. In addition, at least some
of the studies upon which Hi-Tech relies were sponsored
by companies in the supplement industry, and while this
Court has no basis upon which to question the earnestness
of the authors of those studies, it is no secret that scientific
studies performed on behalf of industry tend to produce

36a
Appendix C
the results that industry wants to see. Nonetheless, this
Court would be inclined to find that the Government has
failed to meet its burden of establishing that DMAA has
not been found in geraniums. That, however, does not end
the inquiry in this Court’s opinion. As mentioned, if DMAA
is in geraniums, it exists there in only trace amounts. The
Gauthier article cited above indicated that the studies
that detected DMAA generally found concentrations of
less than 500 parts per billion, and while one sample was
as high as 13 parts per million, that is still a minuscule
amount. It is significant to this Court that, while studies
might have found the presence of DMAA in geraniums,
no one has ever extracted DMAA from geraniums for any
commercial, medicinal or other purpose. It has merely
been detected.
This Court returns to the topic of Congress’ intent
in using the word botanical in 21 U.S.C. § 321(ff), having
determined that the Government’s definition is not entitled
to Chevron deference. In normal usage, a botanical is a
plant, a part of a plant, or a substance that is derived from
a plant for a medicinal, cosmetic, or other purpose. Oxford
Dictionary defines botanical as “[a] substance obtained
from a plant and used as an additive, especially in gin or
cosmetics,” available at https://en.oxforddictionaries.com/
definition/us/botanical, while the web sight Dictionary.com
defines it as “a drug made from part of a plant, as from
roots, leaves, bark, or berries,” available at http://www.
dictionary.com/browse/botanical. The clear implication
is that to be a botanical, the substance must have been
extracted from a plant or plant-like organism and used, for
example, in or as a medicine. While very small amounts of

37a
Appendix C
DMAA might be present in geraniums, the DMAA in the
marketplace has never been extracted from geraniums or
any other plant.
This Court credits Hi-Tech’s argument that a
botanical can be synthesized in a laboratory without
losing its status as a botanical under § 321(ff). Indeed,
growing popularity of a substance in a certain plant
might endanger that plant’s existence if manufacturers
were not permitted to synthesize the substance without
running afoul of the requirements in the DSHEA, and
chemical synthesis is often more economically efficient
than extracting a particular compound from a plant.
Nonetheless, it is inconceivable that in passing the DSHEA
Congress intended for supplement manufacturers to take
a chemical that heretofore had only been manufactured in
a laboratory and to scour the globe in search of minuscule
amounts of that chemical in obscure plants so that they
could declare the substance a dietary ingredient under the
statute. To hold otherwise would be to open the door to
bogus claims that, for example, a given chemical had been
detected in a fungus found only in a remote Tibetan river
valley, and the FDA would be left to refute that claim — to
prove a negative — which the instant case demonstrates
is not easily done.
This Court thus concludes that in using the term
botanical, Congress intended that there must be at least
some history of the substance in question having been
extracted in usable quantities from a plant or a plant-like
organism, leading this Court to find that DMAA is not a
botanical and thus not a dietary ingredient.

38a
Appendix C
Accordingly, with one possible exception discussed
below, DMAA is a “food additive.” Relevant to this case,
a food additive is presumed unsafe unless “there is in
effect, and it and its use or intended use are in conformity
with, a regulation issued under this section prescribing
the conditions under which such additive may be safely
used.” 21 U.S.C. § 348(a)(2). There is no such regulation.
The one possible exception is under 21 U.S.C. § 321(s),
pursuant to which the FDCA exempts from the definition
of “food additive” foods that are “generally recognized . . .
as having been adequately shown through scientific
procedures (or, in the case of a substance used in food prior
to January 1, 1958, through either scientific procedures or
experience based on common use in food) to be safe.” This
status is referred to as “Generally Recognized as Safe”
or “GRAS.” Substances that are GRAS may be used in
food without FDA approval or review. 21 U.S.C. §§ 321(s),
348(b). The burden of establishing that DMAA is GRAS
rests with Hi-Tech.
As DMAA was not used in food prior to 1958, for it
to be GRAS, Hi-Tech must demonstrate “both technical
evidence of safety and a basis to conclude that this technical
evidence of safety is generally known and accepted” among
the scientific community. 62 Fed.Reg. 18940 (explaining
the requirements of 21 C.F.R. § 170.30(a–b)); see United
States v. Western Serum Co., Inc., 666 F.2d 335, 338
(9th Cir. 1982); United States v. Articles of . . . Promise
Toothpaste, 624 F. Supp. 776, 778 (N.D. Ill. 1985), aff’d
826 F.2d 564 (7th Cir. 1987); United States v. Articles of
Drug . . . Hormonin, 498 F. Supp. 424, 435 (D.N.J. 1980).

39a
Appendix C
Although unanimity among scientists is not required,
there must be a general consensus regarding the safety
of the substance in question for it to be considered GRAS.
U.S. v. BioAnue Laboratories, Inc., 2014 U.S. Dist.
LEXIS 99962, 2014 WL 3696662 at *7 (M.D. Ga. July 23,
2014); see United States v. An Article of Food, 752 F.2d 11,
15 n.6 (1st Cir. 1985) (noting that evidence of a “genuine
dispute among qualified experts” is “sufficient to preclude
a finding of ‘general recognition’ of safe use”).
Both sides of this dispute have presented extensive
documentation regarding DMAA and the studies that
have been performed on the effects of DMAA on humans
and animals. This Court’s conclusion after reading the
various expert reports and other documents is that there
is no consensus regarding the question of whether the
consumption of DMAA is safe.
This Court will avoid engaging in a detailed review
of the numerous studies identified and discussed by the
parties’ experts. However, United States Magistrate
Judge Anne T. Berton, in ruling on a Daubert motion in
a DMAA products liability case in Texas, provided an
exhaustive discussion of the various available studies of
the effects of DMAA and noted that “[i]t is clear . . . that
the scientific literature on DMAA presents insufficient
data to conclude that DMAA is safe or that DMAA causes
harm because the sample sizes are too small.” Sparling v.
Doyle, 2015 U.S. Dist. LEXIS 97204, 2015 WL 4528759
at *35 (W.D. Tex. July 27, 2015).

40a
Appendix C
This Court further notes that scientists have raised
legitimate concerns regarding the safety of DMAA.
DMAA is chemically similar to amphetamine, and some
scientists have concerns that DMAA may have some of
that drug’s negative effects. The Government’s expert,
Dr. Dennis M. Keefe identified “[e]leven articles [that]
described case reports or clinical studies involving
adverse outcomes that occurred after the consumption
of DMAA-containing products.” [Doc. 107-8 at 33]. Five
reports associated recreational DMAA consumption
with substance abuse, [id.], three studies identified liver
toxicity, [id.], and several studies showed elevated blood
pressure, [id. at 34].
To be sure, Hi-Tech has presented the results of
studies that show no adverse (or no significant adverse)
effect from DMAA. However, as the Government’s expert
points out, and as echoed by Magistrate Judge Berton, the
sample sizes of those studies is simply too small to provide
any convincing evidence regarding the safety of DMAA.
Moreover, the safety of DMAA is not really the issue, and
it does not matter that concerns about DMAA may be
unfounded. The question is whether there is a consensus
among experts regarding DMAA’s safety, and this Court
concludes that HiTech has failed to present sufficient
evidence to demonstrate that consensus, leading to the
further conclusion that DMAA is not generally recognized
as safe under the FDCA. Accordingly, products for human
consumption containing DMAA are adulterated foods
under the FDCA and subject to seizure pursuant to 21
U.S.C. § 334.

41a
Appendix C
This Court’s determination that Hi-Tech’s products
containing DMAA are subject to seizure and forfeiture
necessarily requires this Court to further conclude that
the officials involved in the seizure and sued by Hi-Tech
did not violate the FDCA, the DSHEA, the Administrative
Procedures Act (5 U.S.C. § 702), or the Due Process
Clause of the Fifth Amendment to the United States
Constitution as claimed by Hi-Tech in the suit originally
filed in Washington, D.C., and ultimately merged into
this action.
Conclusion
For the reasons discussed, the Government’s motion
for summary judgment, [Doc. 107], is GRANTED and
Hi-Tech’s motion for summary judgment, [Doc. 108], is
DENIED. The Clerk is DIRECTED to enter judgment
as to all claims in favor of the Government and against
the Defendants undetermined quantities of all articles
of finished and in-process foods, raw ingredients (bulk
powders, bulk capsules) containing DMAA with any
lot number, size, or type container, whether labeled or
unlabeled as listed in the amended complaint, [Doc. 25 as
further amended by Doc. 138], and also against Claimants
Hi-Tech Pharmaceuticals, Inc., and Jared Wheat in the
forfeiture action. The Clerk is further DIRECTED to
enter judgment as to all claims in favor of Defendants
and against Plaintiffs in the suit originally filed in the
District Court for the District of Columbia, Hi-Tech
Pharmaceuticals, Inc. v. FDA, et al., No. 1:13-CV-1747
(D.D.C.), later transferred to this Court as Hi-Tech
Pharmaceuticals, Inc. v. FDA, et al., 1:14-CV-2479 (N.D.
Ga.), and even later merged into this action.

42a
Appendix C
The Defendants in the forfeiture action, undetermined
quantities of all articles of finished and in-process foods,
raw ingredients (bulk powders, bulk capsules) containing
DMAA with any lot number, size, or type container,
whether labeled or unlabeled listed in the amended
complaint, [Doc. 25 as further amended by Doc. 138], are
hereby CONDEMNED, and FORFEITED to the United
States for destruction.
As this Court did not rely on the testimony of Iklas A.
Khan, James P. Kababick, Rick Flurer, or Paula N. Brown,
Hi-Tech’s motions to strike their testimony, [Docs. 91, 100,
101, 102, 103, 122], are DENIED as moot.
The parties’ various motions to seal documents, [Docs.
99, 105, 111, 112, 114], and to file excess pages, [Docs. 106,
110, 118], are GRANTED nunc pro tunc.
IT IS SO ORDERED, this 3rd day of April, 2017.
/s/ Willis B. Hunt, Jr.
WILLIS B. HUNT, JR.
Judge, U. S. District Court

43a
Appendix
D
APPENDIX D — ORDER
DENYING
REHEARING
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT,
FILED APRIL 8, 2020
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 17-13376-JJ
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
UNDETERMINED QUANTITIES OF ALL
ARTICLES OF FINISHED AND IN-PROCESS
FOODS, RAW INGREDIENTS (BULK POWDERS,
BULK CAPSULES), WITH ANY LOT NUMBER,
SIZE, OR TYPE CONTAINER, WHETHER
LABELED OR UNLABELED, et al.,
Defendants,
HI-TECH PHARMACEUTICALS, INC.,
JARED WHEAT,
Claimants-Appellants.
Appeal from the United States District Court
for the Northern District of Georgia

44a
Appendix D
ON PETITION(S) FOR REHEARING AND PETITION(S)
FOR REHEARING EN BANC
BEFORE: JORDAN and TJOFLAT, Circuit Judges, and
HINKLE,* District Judge.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge
in regular active service on the Court having requested
that the Court be polled on rehearing en banc. (FRAP 35)
The Petition for Rehearing En Banc is also treated as a
Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)
*Honorable Robert L. Hinkle, United States District
Judge for the Northern District of Florida, sitting by
designation.
ORD-42

